<html>
<title> - OVERSIGHT OF HHS AND DHS EFFORTS TO PROTECT UNACCOMPANIED ALIEN CHILDREN FROM HUMAN TRAFFICKING AND ABUSE</title>
<body><pre>[Senate Hearing 115-657]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-657

                  OVERSIGHT OF HHS AND DHS EFFORTS TO
 PROTECT UNACCOMPANIED ALIEN CHILDREN FROM HUMAN TRAFFICKING AND ABUSE

=======================================================================

                                HEARING

                               BEFORE THE

                PERMANENT SUBCOMMITTEE ON INVESTIGATIONS

                                 OF THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             SECOND SESSION
                               __________

                             APRIL 26, 2018
                               __________

        Available via the World Wide Web: http://www.govinfo.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    
                  
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
36-157 PDF                 WASHINGTON : 2019                   
                  


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 CLAIRE McCASKILL, Missouri
ROB PORTMAN, Ohio                    THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  HEIDI HEITKAMP, North Dakota
JAMES LANKFORD, Oklahoma             GARY C. PETERS, Michigan
MICHAEL B. ENZI, Wyoming             MAGGIE HASSAN, New Hampshire
JOHN HOEVEN, North Dakota            KAMALA D. HARRIS, California
STEVE DAINES, Montana                DOUG JONES, Alabama

                  Christopher R. Hixon, Staff Director
               Margaret E. Daum, Minority Staff Director
                     Laura W. Kilbride, Chief Clerk


                PERMANENT SUBCOMMITTEE ON INVESTIGATIONS

                       ROB PORTMAN, Ohio Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  HEIDI HEITKAMP, North Dakota
JAMES LANKFORD, Oklahoma             GARY C. PETERS, Michigan
STEVE DAINES, Montana                MAGGIE HASSAN, New Hampshire

            Andrew Dockham, Staff Director and Chief Counsel
                John Kilvington, Minority Staff Director
                      Kate Kielceski, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Portman..............................................     1
    Senator Carper...............................................     4
    Senator Hassan...............................................    15
    Senator Johnson..............................................    17
    Senator Lankford.............................................    21
    Senator Heitkamp.............................................    24
    Senator McCaskill............................................    26
    Senator Harris...............................................    29
Prepared statement:
    Senator Portman..............................................    55
    Senator Carper...............................................    57

                               WITNESSES
                        Thursday, April 26, 2018

James W. McCament, Deputy Under Secretary, Office of Strategy, 
  Policy, and Plans, U.S. Department of Homeland Security........     8
Steven Wagner, Acting Assistant Secretary, Administration for 
  Children and Families, U.S. Department of Health and Human 
  Services.......................................................    10
Kathryn A. Larin, Director, Education, Workforce, and Income 
  Security, U.S. Government Accountability Office; Accompanied by 
  Rebecca Gambler, Director, Security and Justice Team, U.S. 
  Government Accountability Office...............................    11
Allison E. Herre, Immigration Legal Services Director, Catholic 
  Charities of Southwestern Ohio.................................    38
Jessica A. Ramos, Staff Attorney, Advocates of Basic Legal 
  Equality, Inc., Unaccompanied Immigrant Children's Project.....    40
Kelsey R. Wong, Program Director and Project Director, Shenandoah 
  Valley Juvenile Center.........................................    42
Pattiva M. Cathell, Ed. D., ELL School Counselor, Sussex Central 
  High School, Georgetown, Delaware..............................    43
Laura Graham, Deputy Director and Managing Attorney, Delaware 
  Immigration and Medical-Legal Partnership Program, Community 
  Legal Aid Society, Inc.........................................    44

                     Alphabetical List of Witnesses

Cathell, Pattiva M.:
    Testimony....................................................    43
    Prepared statement...........................................   116
Graham, Laura:
    Testimony....................................................    44
    Prepared statement...........................................   133
Herre, Allison E.:
    Testimony....................................................    38
    Prepared statement...........................................    99
Larin, Kathryn A.:
    Testimony....................................................    11
    Prepared statement...........................................    83
McCament, James W.:
    Testimony....................................................     8
    Prepared statement...........................................    65
Ramos, Jessica A.:
    Testimony....................................................    40
    Prepared statement...........................................   105
Wagner, Steven:
    Testimony....................................................    10
    Prepared statement...........................................    73
Wong, Kelsey R.:
    Testimony....................................................    42
    Prepared statement...........................................   112

                                APPENDIX

Letter to Scott Lloyd............................................   137
ICE press release................................................   141
Department of Justice press release..............................   145
Statement submitted for the Record from by Church World Service..   148
Responses to post-hearing questions for the Record from:
Mr. McCament.....................................................   149
    Mr. Wagner...................................................   174
    Ms. Larin....................................................   188

 
                  OVERSIGHT OF HHS AND DHS EFFORTS TO
                  PROTECT UNACCOMPANIED ALIEN CHILDREN
                    FROM HUMAN TRAFFICKING AND ABUSE

                              ----------                              


                        THURSDAY, APRIL 26, 2018

            U.S. Senate, Permanent Subcommittee on 
                                    Investigations,
   Committee on Homeland Security and Governmental Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:01 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Rob Portman, 
Chairman of the Subcommittee, presiding.
    Present: Senators Portman, Lankford, Daines, Carper, 
Heitkamp, Peters, and Hassan.
    Also present: Senators Johnson, McCaskill, and Harris.

            OPENING STATEMENT OF SENATOR PORTMAN\1\

    Senator Portman. We have some colleagues who are joining 
us, and I know some of them have multiple hearings this 
morning. So we are going to get moving here and give them a 
chance to come and ask questions as well.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Portman appears in the 
Appendix on page 55.
---------------------------------------------------------------------------
    I want to start by talking about why we are here and how 
this all started, at least for me. In 2015, I learned the story 
of eight unaccompanied minors from Guatemala who crossed our 
Southern Border. A ring of human traffickers had lured them to 
the United States, had actually gone to Guatemala and told 
their parents that they would provide them education in 
America. To pay for the children's smuggling debt, their 
parents actually gave the traffickers the deeds to their homes. 
The traffickers retained those deeds until the children could 
work off the debt because they were not interested in giving 
them an education, it turned out. They were interested in 
trafficking them.
    When the children crossed our border, their status, as 
defined by Federal immigration law, was that of an 
``unaccompanied alien child,'' (UACs). You will hear the term 
``UAC'' used today. The Department of Homeland Security (DHS) 
picked them up and, following protocol, transferred them to the 
Department of Health and Human Services (HHS). HHS was then 
supposed to place these children with sponsors who would keep 
them safe until they could go through the appropriate 
immigration legal proceedings. That is the practice.
    That did not happen. What did happen was that HHS released 
these children back into the custody of those human traffickers 
without vetting them.
    Let me repeat: HHS actually placed these children back in 
the hands of the traffickers. The traffickers then took them to 
an egg farm in Marion, Ohio, where these children lived in 
squalid conditions and were forced to work 12 hours a day, six 
or seven days a week, for more than a year. The traffickers 
threatened the children and their families with physical harm--
and even death--if the children did not work these long hours.
    This Subcommittee investigated. We found that HHS did not 
do background checks on the sponsors. HHS did not respond to 
red flags that should have alerted them to problems with the 
sponsors. For example, HHS missed that a group of sponsors were 
collecting multiple UACs, not just one child but multiple 
children. HHS did not do anything when a social worker provided 
help to one of those children, or tried to, at least, and the 
sponsor turned the social worker away.
    During the investigation, we held a hearing in January 
2016--so this goes back a couple of years--where HHS committed 
to do better, understanding that this was a major problem. In 
2016, of course, that was during the Obama Administration, so 
this has gone on through two Administrations now. HHS committed 
to clarifying the Department of Homeland Security and HHS 
responsibilities for protecting these children. HHS and DHS 
entered into a three-page Memorandum of Agreement (MOA), which 
said that the agencies recognized they should ensure that these 
unaccompanied alien children were not abused or trafficked.
    The agreement said the agencies would enter into a detailed 
Joint Concept of Operations (JCO)--so an agreement that would 
actually lay out the responsibilities--that would spell out 
what the agencies would do to fix the problems. HHS and DHS 
gave themselves a deadline of February 2017 to have this Joint 
Concept of Operations pulled together. That seemed like plenty 
of time to do it. But it was not done, and that was over a year 
ago, in February 2017.
    It is now April 2018. We do not have that Joint Concept of 
Operations, the so-called JCO--and despite repeated questions 
from Senator Carper and from me, as well as our staffs, over 
the past year, we do not have any answers about why we do not 
have the Joint Concept of Operations.
    In fact, at a recent meeting, a DHS official asked our 
investigators why we even cared about the JCO. Why? Let me be 
clear. We care about the JCO because we care that we have a 
plan in place to protect these kids when they are in government 
custody. We care because the Government Accountability Office 
(GAO) has said that DHS has sent children to the wrong facility 
because of miscommunications with HHS and because of other 
concerns.
    We care because the agencies themselves thought it was 
important enough to set a deadline for the JCO, but then blew 
past that date. We care because these kids, regardless of their 
immigration status, deserve to be properly treated, not abused 
or trafficked.
    We learned at 4 p.m. yesterday that 13 days ago there was 
an additional Memorandum of Agreement reached between the two 
agencies. We requested and finally received a copy of that new 
agreement at midnight last night. It is not the JCO that we 
have been waiting for, but it is a more general statement of 
how information will be shared between the two agencies. 
Frankly, we had assumed that this information was already being 
shared, and maybe it was. It is a positive thing that we have 
this additional memorandum. That is great. It is nice that this 
hearing motivated that to happen. But it is not the JCO we have 
all been waiting for.
    We called this hearing today for DHS and HHS to give us 
some answers about the JCO. Once DHS hands unaccompanied minors 
off to HHS, the law provides that ``the care and custody of all 
unaccompanied alien children . . . shall be the responsibility 
of the Secretary of Health and Human Services.'' But HHS told 
this Subcommittee that once it places children with sponsors--
even sponsors who are not related to the children--it no longer 
has legal responsibility for them. Not if they are abused, not 
if they miss their court hearings. No responsibility. That is, 
of course, not acceptable and not workable.
    HHS, by the way, inherited responsibilities relating to 
these children when Congress dissolved the Immigration and 
Naturalization Service (INS). We continue to believe HHS has 
the authority and responsibility to care for and keep track of 
these children.
    Since our 2016 hearing, we also have heard about other 
problems. We have heard that sponsors frequently fail to ensure 
these children show up to their immigration court proceedings. 
That undermines our rule of law and an effective immigration 
system. In almost all of those cases, the judge enters an in 
absentia removal order. That means that even if the children 
are eligible for immigration relief, like asylum status, they 
do not get it and are ordered removed. So that is bad for the 
children, too.
    We also learned that HHS does not track these children once 
HHS releases them to the sponsors. Nor does HHS notify State or 
local governments when it places these children with sponsors 
in those communities. HHS says they do plan to start notifying 
local law enforcement when it releases a relatively small 
number of high-risk children. That is good. But HHS has not yet 
done so because it cannot figure out who to tell. That seems 
like a straightforward step. We should be able to at least 
figure that out here today.
    Since 2016, HHS has called sponsors and children 30 days 
after placement with sponsors to check on the children. That is 
a good step, in my view. But in his testimony, Mr. Wagner says 
that between October and December last year, the Office of 
Refugee Resettlement (ORR) tried to reach 7,635 of these 
children. Of those, he says, ``ORR was unable to determine with 
certainty the whereabouts of 1,475 UAC.'' In other words, that 
is almost 1,500 kids missing in just a 3-month period. We would 
like to know how HHS plans to keep track of these children.
    We have also heard about problems at the three secure 
facilities HHS uses to house UACs who are higher risks--those 
accused of crimes, who might do harm to themselves, or who 
present a flight risk. The head of the Yolo County, California 
facility says HHS does not give them enough money for the 
number of children they house, which means they cannot hire 
enough staff to take care of the children safely. We have a 
witness from the facility in Shenandoah Valley, who is going to 
talk later today, who will tell us why their facility simply is 
not equipped to handle some of the children that the HHS Office 
of Refugee Resettlement places there and what can be done about 
that.
    Again, this is not an issue that just came up in this 
Administration. This dates back to the Obama administration, 
now into the new Trump administration. The topic of 
unaccompanied alien children obviously continues to be a hot-
button issue generally. But today we want to focus on two key 
issues related to them.
    First, just human decency. Once these unaccompanied kids 
are in the United States, we have a duty to ensure they are not 
trafficked and not abused.
    Second, the rule of law. Our immigration system is clearly 
broken, and one problem is that half of these kids are not 
showing up at their court hearings. That is not good for the 
kids or for our system. We need to do better.
    I look forward to hearing from our witnesses today about 
how we can make that happen, and, again, I appreciate my 
colleagues being here. We will go through the testimony 
quickly, and then I will withhold my questions until you all 
have had a chance to ask yours.
    With that, I would like to ask our Ranking Member, Senator 
Carper, for his opening statement.

             OPENING STATEMENT OF SENATOR CARPER\1\

    Senator Carper. Thanks. Thanks so much, Mr. Chairman. 
Thanks not just for holding the hearing. I want to thank you 
for the commitment you have shown over a number of years to 
better care for vulnerable migrant children who end up in our 
Nation and in our communities. I welcome all of our witnesses. 
Thank you for making time to be here with us today. This is not 
easy. This is not an easy problem; it is not an easy issue. I 
think if we work together and pull together and be honest with 
one another and work at it, we can make some real progress 
today. And we want to do that.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Carper appears in the 
Appendix on page 57.
---------------------------------------------------------------------------
    I want to thank our staffs who have worked very hard in 
preparing for today's hearing, and for the good work that they 
do on both the majority and minority side.
    Most of the kids we will be talking about today arrived in 
our country during an unprecedented surge of migration that we 
have seen along our Southern Border in recent years. They came 
here primarily from Guatemala, Honduras, and El Salvador to 
escape extreme poverty and, in some cases, unspeakable violence 
in the countries where they were born and raised. Yet our 
Subcommittee has found that in too many cases, in Ohio, in 
Delaware, and around the country, we are failing in our 
responsibility to protect and properly care for these children 
after they arrive here seeking our help. A 2008 law signed by 
former President George W. Bush clearly places all children who 
arrive at our borders and ports of entry (POEs) without a 
parent or guardian under the care and custody of the Department 
of Health and Human Services.
    In fulfilling its responsibilities to these children, HHS 
must place them in safe homes, offer them mental health care 
and other services that they might need, and ensure that they 
are participating in immigration court proceedings. Based on 
our Subcommittee's findings, though, HHS is failing in these 
and in a number of other areas.
    In January 2016, our Subcommittee held a hearing on a staff 
report detailing how HHS had placed eight Central American 
children with sponsors in Marion, Ohio--the Chairman has 
already talked about that, and I am not going to repeat what he 
has already said. But we learned that HHS failed to detect that 
the sponsors in this case sought and received custody of 
multiple, unrelated children. HHS also failed to perform 
background checks on some of the adults who would be living 
with or caring for the children and did not visit them where 
they were supposed to be living.
    At one point, HHS even failed to take action when someone 
answering the door at a child's home declined the mental health 
treatment that was approved for the child and denied the 
caregiver access to them.
    Since 2016, HHS and the Department of Homeland Security 
have taken steps in response to recommendations from us and 
from the Government Accountability Office that should make it 
less likely that unaccompanied migrant children might fall 
through the cracks and wind up exploited by other unscrupulous 
people. Specifically, HHS policy now calls for more background 
checks, more home visits, and more access to services like 
mental health treatment for children once they are placed with 
sponsors.
    The Department also now requires that all children and 
their sponsors be contacted at least once within 30 days of 
their placement so that problems can be detected and referred 
to local authorities. These are positive steps, but the 
testimony we will be receiving today tells us that too many of 
the children we are placing in homes across the country are 
still at great risk.
    Sadly, it is not impossible to imagine a child today 
finding himself or herself in a situation similar to the one 
that was discovered in Ohio just three years ago. In 
preparation for this hearing, our staffs have heard reports of 
children being placed in homes with people they do not know who 
expect them to work to help with living expenses. We have heard 
about children, sometimes due to a need to send money home or 
to pay debts to smugglers, working all night and as a result 
unable to stay awake at school during the day.
    These are the kinds of problems that HHS, working with 
State and local partners, should be able to detect and address 
or, better yet, prevent from happening in the first place. 
Unfortunately, it seems they cannot.
    HHS informs us in their testimony today that, between 
October and December of last year, they actually lost track, as 
the Chairman has said, of nearly 1,500 children placed in their 
care who they attempted to contact after placement with a 
sponsor. Dozens more ran away from home or were found to have 
moved in with someone not vetted or approved by HHS.
    Given all that we learned in 2015 and 2016, it is 
unacceptable that we can still be this bad at keeping track of 
these children and keeping them out of danger. We have also 
learned more in preparing for this hearing about how our system 
too often sets children up for failure even when they find 
themselves in good, stable homes.
    Many Central American migrants do not speak English; some 
do not even speak Spanish. Their sponsors are often in the same 
boat, yet HHS leaves them with confusing guidance on how to 
register for school and how to navigate our immigration court 
system.
    Even when children and their sponsors know what to do, we 
make it very difficult for them to get to court and participate 
in the process. In Delaware, for example, children placed in 
homes in Sussex County--that is in southern Delaware--must find 
a way to get to immigration court in Philadelphia. It is about 
100 miles away, a drive that can take more than two hours each 
way.
    A lawyer can help, but many cannot afford one, and free 
legal services are not always available, as we know. So what 
happens too often is children do not show up for hearings. More 
likely than not, those who do not show up will be ordered 
removed back to their home countries even if they have a 
legitimate claim to stay here.
    In a number of ways, Mr. Chairman, we are denying these 
children--you have already said this, but we are denying these 
children the chance that they deserve, the chance our laws 
require we give them, to live in safety and to make their case 
for asylum or some other protected status.
    There are steps we could be taking right now to change 
this. I will mention a few.
    First, it is imperative that HHS and DHS get us the 
document that we have been promised us since 2016 that, among 
other things, would lay out each Department's roles and 
responsibilities when it comes to protecting and caring for 
unaccompanied children. This Joint Concept of Operations, due 
14 months ago, was intended, at least in part, to provide the 
kind of detail agencies need to identify gaps that put children 
at risk.
    Here in Congress, this document will help us hold agencies 
accountable and make decisions about what new authorities and 
resources might be needed to properly care for the 
unaccompanied children in our country.
    We need this information, and we need it now.
    What we also need now is to have a conversation about how 
to better partner with the State and local officials who run 
the schools, the law enforcement agencies, and the child 
welfare agencies where these children will be living.
    Given how much HHS clearly relies on State and local 
officials to protect this population of children, it does no 
one any good if we first learn that a child is being placed in 
Delaware when they walk through the front doors of Sussex 
Central High School in Georgetown.
    We also need to do more to help our immigration courts. 
Based on data that my staff has received, we have more than 
75,000 cases involving migrant children pending across our 
country, and we are adding more just as quickly as we are 
resolving others. Expecting judges to just work faster, as the 
Trump administration recently proposed, will not solve this 
problem. We need more judges, and we need to encourage the 
courts to work more flexibly so that fewer children are forced 
to drop out of the legal process.
    Finally, we need to make a long-term commitment to our 
neighbors in Guatemala, Honduras, and El Salvador to help them 
address the poverty, the crime, and hopelessness that plagues 
those countries.
    Along with some of my colleagues, I have visited all three 
countries in the Northern Triangle a number of times over the 
years. I have met with their leaders and seen on the ground how 
communities there are struggling to deal with challenges that 
would be unimaginable to most Americans. A good number of those 
challenges are fueled by our addiction to drugs and our past 
interventions in regional conflicts.
    As long as these challenges go unaddressed, children and 
other vulnerable Central Americans will continue to make the 
dangerous trek across Mexico to our southern border.
    Some have pointed to the continuing Central American 
migration to our country as a sign that we need to bolster our 
border security or even build a wall along our Southern Border.
    But so many of the migrants that we are talking about here 
are just turning themselves in when they get here. They do not 
run away. They run to the Border Patrol officers. A wall or the 
National Guard just will not stop them from coming.
    A sustained commitment from us, from our partners in the 
region, and from the governments in the Northern Triangle to 
improve the lives of the citizens of Guatemala, Honduras, and 
El Salvador is the only way--the best way, I think--to address 
the root causes of the migration that we see into our Nation.
    Mr. Chairman, thanks very much for bringing us here, and to 
our witnesses. Everything I do--my colleagues have heard me say 
this every day, almost every week, everything I do I know I can 
do better. I think the same is true of all of us, and it is 
certainly true of our Federal agencies and our State and local 
partners. The kids deserve something better, and let us make 
that happen.
    Thank you.
    Senator Portman. I thank the Ranking Member and agree with 
him, and that is what this hearing is about. We are going to 
now introduce the first panel.
    James McCament is Deputy Under Secretary for the U.S. 
Department of Homeland Security, Office of Strategy, Policy, 
and Plans.
    Steven Wagner is the Acting Assistant Secretary for the 
U.S. Department of Health and Human Services, Administration 
for Children and Families (ACF).
    Kathryn Larin is Director of the U.S. Government 
Accountability Office's Education, Welfare, and Income Security 
team.
    Although she will not be GAO's main witness, we also have 
with us Rebecca Gambler, GAO's Director for the Homeland 
Security and the Department of Justice (DOJ) team. She is 
seated behind and to the left of Ms. Larin, and she will also 
be sworn in in case any questions come up that she is better 
equipped to handle.
    I appreciate all of you being here today. Thank you for 
coming. I thank you for your willingness to testify and help us 
to improve this system.
    The rules of the Subcommittee require all witnesses, 
including Ms. Gambler, to be sworn in, so at this time I would 
ask you to please stand and raise your right hand. Do you swear 
that the testimony you are about to give to this Subcommittee 
is the truth, the whole truth, and nothing but the truth, so 
help you, God?
    Mr. McCament. I do.
    Mr. Wagner. I do.
    Ms. Larin. I do.
    Ms. Gambler. I do.
    Senator Portman. Please be seated. Let the record reflect 
the witnesses all answered in the affirmative.
    We will be using a timing system today. To the witnesses, 
all of your written testimony will be printed in the record in 
its entirety. We will ask you, though, to limit your oral 
testimony to five minutes. Mr. McCament, we would like to hear 
from you first.

  TESTIMONY OF JAMES W. MCCAMENT,\1\ DEPUTY UNDER SECRETARY, 
   OFFICE OF STRATEGY, POLICY, AND PLANS, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. McCament. Thank you, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. McCament appears in the Appendix 
on page 65.
---------------------------------------------------------------------------
    Chairman Portman, Ranking Member Carper, and distinguished 
Members of the Subcommittee, thank you for the opportunity to 
testify at today's hearing to examine the current efforts by 
the Department of Health and Human Services, and the Department 
of Homeland Security, to protect unaccompanied alien children, 
from human trafficking and abuse. On behalf of DHS, we 
appreciate that this hearing reflects the Subcommittee's 
sustained interest, dedication, and focus regarding this 
important issue.
    The policies and procedures regarding UACs are directly 
informed by the 1997 Flores Settlement Agreement, the Homeland 
Security Act of 2002, and the 2008 Trafficking Victims 
Protection Reauthorization Act (TVPRA). The 1997 Flores 
Settlement Agreement resulted in establishing a nationwide 
policy for custody and treatment of UACs which still governs 
our actions in 2018. In 2002, as mentioned, the Homeland 
Security Act divided responsibilities for UAC processing and 
treatment between DHS and HHS' Office of Refugee Resettlement. 
DHS then became responsible for the apprehension, transfer, and 
repatriation of UACs while HHS' responsibility is for the 
coordinating and implementing care and placement and 
maintaining a list of legal service providers, among other 
responsibilities.
    With passage of the TVPRA in 2008, the Secretary of DHS, in 
conjunction with other agencies, was directed to develop 
policies and procedures to ensure UACs are safely repatriated 
to their country of origin or last habitual residence. It also 
established a different set of rules for UACs from contiguous 
countries versus non-contiguous countries. For example, a UAC 
who is a national or habitual resident of Canada or Mexico and 
encountered at the border may be permitted to withdraw an 
application for admission and be returned to his or her country 
of origin if there are no human trafficking indicators or claim 
of fear of return and the child is able to make an independent 
decision to withdraw that application. If not eligible to be 
voluntarily returned, the child is required to be placed in 
removal proceedings. In contrast, UACs from non-contiguous 
countries encountered at the border are generally issued a 
Notice to Appear (NTA) and placed directly in removal 
proceedings before an immigration judge.
    Typically, UACs are first encountered by DHS when 
presenting themselves to Customs and Border Protection (CBP) at 
the border or port of entry. However, Immigration and Customs 
Enforcement (ICE), may encounter UACs in the interior of the 
United States during immigration enforcement actions. Upon 
encounter, the agency must first determine whether the 
individual meets the statutory definition of a UAC. Defined as 
a child who has no lawful immigration status in the United 
States, has not attained 18 years of age, and with respect to 
whom there is no parent or legal guardian in the United 
States--or no parent or legal guardian available in the United 
States to provide care and physical custody. Once a 
determination is made, with the exception of certain 
circumstances, the individual is indeed a UAC, DHS is required 
by law to notify HHS of the encounter within 48 hours and must 
transfer custody of the child to HHS within 72 hours.
    With respect to removals and repatriations, the TVPRA does 
require DHS to ensure that UAC removal is fully coordinated 
with host government authorities, and we seek to do so.
    To further protect the integrity of this process and our 
immigration system, DHS is also working closely within the 
Trump administration and with Members of Congress to address 
existing loopholes that allow individuals to exploit our 
immigration laws, particularly, as the Chairman mentioned, with 
respect to vulnerable populations. This effort includes, but is 
not limited to, the Administration's press for: first, amending 
the TVPRA to treat all UACs the same, regardless of 
nationality, so that if they are not victims of human 
trafficking they can be safely returned home or removed to a 
safe third country; second, clarifying that alien minors who do 
not meet the UAC statutory definition are not entitled to the 
presumptions or protections granted to UACs; and, finally, 
terminating the Flores Settlement Agreement by the passage of 
legislation that stipulates care standards for minors in 
custody and clarifying corresponding provisions of the TVPRA.
    DHS works with our interagency and foreign counterparts on 
a daily basis to ensure the humane treatment of UACs while 
simultaneously seeking to enforce the laws Congress has passed. 
We fully understand that this responsibility carries great 
weight.
    Thank you for the opportunity to testify before you on this 
critical topic. I look forward to answering your questions.
    Senator Portman. Thank you, Mr. McCament. Mr. Wagner.

  TESTIMONY OF STEVEN WAGNER,\1\ ACTING ASSISTANT SECRETARY, 
 ADMINISTRATION FOR CHILDREN AND FAMILIES, U.S. DEPARTMENT OF 
                   HEALTH AND HUMAN SERVICES

    Mr. Wagner. Chairman Portman, Ranking Member Carper, and 
Members of the Subcommittee, it is my honor to appear on behalf 
of the Department of Health and Human Services. I am Steven 
Wagner, Acting Assistant Secretary for Children and Families. 
In this capacity, I oversee the work of the Office of Refugee 
Resettlement, which is responsible for the care and placement 
of unaccompanied alien children. Today I will discuss a number 
of developments in the programs, policies, and Administration 
since February 2016.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Wagner appears in the Appendix on 
page 73.
---------------------------------------------------------------------------
    ORR has made a number of policy enhancements in the area of 
sponsor assessments and home studies. In 2016, ORR added and 
later redefined guidance on the types of documents ORR accepts 
as evidence of identity of the potential sponsor, the household 
members, and any adults listed in a sponsor care plan. The 
guidance also clarified what constitutes acceptable documents 
to prove the prospective sponsor's address, the child's 
identity, and the sponsor-child relationship. ORR also added an 
alternative method to verify a potential sponsor's address.
    These changes help to protect children from traffickers, 
smugglers, and others who wish to do them harm. If ORR 
discovers that a sponsor is using fraudulent documents, ORR 
denies release and reports the case to the HHS Office of the 
Inspector General (OIG) and to U.S. Immigration and Customs 
Enforcement's Homeland Security Investigations (HSI).
    ORR conducts criminal public records checks and sex 
offender registry checks on all potential sponsors. ORR 
conducts national criminal history checks based on fingerprints 
for all potential sponsors. ORR conducts these checks on 
parents where there is a documented risk to the safety of the 
child, the child is especially vulnerable, or the case is being 
referred for a home study.
    ORR also conducts immigration status checks through the 
Central Index System on all potential sponsors, except parents. 
Again, ORR conducts these checks on parents where there is a 
documented risk to the safety of the UAC, the child is 
especially vulnerable, or the case is being referred for a home 
study.
    In addition, ORR conducts child abuse and neglect checks on 
all unrelated sponsors. ORR conducts these checks on parents or 
other relatives if the case requires a home study or a special 
concern has been identified.
    In April 2016, ORR clarified that it may require enhanced 
checks for sponsors in any category where there are any 
unresolved issues or questions related to a child's well-being.
    In assessing a sponsor's suitability, ORR, among other 
considerations, evaluates the sponsor's ability to ensure the 
child's presence at future immigration proceedings. To 
emphasize the importance of a child's attendance at immigration 
proceedings, in December 2017 ORR made attendance at the Legal 
Orientation Program for Custodians a criterion in the sponsor 
assessment process.
    In the area of home studies, ORR made two significant 
policy changes. The first is ORR began requiring home studies 
for all UAC 12 years of age and younger being released to non-
relative sponsors. The other change underscored the need for 
case managers and case coordinators to recommend home studies 
if they think a home study would provide additional information 
required to determine that the sponsor is able to care for the 
health, safety, and well-being of the child.
    Another step in improving the safety of releases is to 
contact the child and the sponsor shortly after release. To 
accomplish this, ORR initiated safety and well-being calls, 
during which a case manager contacts the child and the sponsor 
30 days after release. If the case manager, or any other ORR 
grantee or contractor that has contact with a released child, 
has a concern about the child's safety or well-being, they are 
required to report all concerns to appropriate investigative 
agencies and notify ORR of immediate dangers to a child's 
safety or well-being. To remove children from unsafe 
situations, ORR reports notifications of concern to local law 
enforcement.
    ORR has also expanded the services of its National Call 
Center. This is available 24 hours a day to all children and 
sponsors post-release and provides referrals to community 
assistance and other guidance to sponsors and children seeking 
help, including those with safety concerns.
    Finally, ORR continues to develop its interagency 
communication efforts. ORR is working particularly to enhance 
its day-to-day consultations with the Department of Homeland 
Security. ORR notifies DHS 24 hours after a minor's release, 
and ORR and DHS are working toward the conclusion of the draft 
Joint Concept of Operations.
    Thank you for this opportunity to update you on ORR's 
efforts in the UAC program. I look forward to working with you 
on our continued enhancement of policies and procedures and all 
facets of the UAC program. I welcome your questions.
    Senator Portman. Thank you, Mr. Wagner. Ms. Larin.

    TESTIMONY OF KATHRYN A. LARIN,\1\ DIRECTOR, EDUCATION, 
WORKFORCE, AND INCOME SECURITY, U.S. GOVERNMENT ACCOUNTABILITY 
OFFICE; ACCOMPANIED BY REBECCA GAMBLER, DIRECTOR, SECURITY AND 
      JUSTICE TEAM, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Larin. Chairman Portman, Ranking Member Carper, and 
Members of the Subcommittee, I am pleased to be here today to 
discuss progress made by the Department of Homeland Security 
and HHS' Office of Refugee Resettlement in improving the care 
and safety of unaccompanied children since we first reported on 
these issues in 2015 and 2016.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Larin appears in the Appendix on 
page 83.
---------------------------------------------------------------------------
    Specifically, my testimony today will cover four key 
questions:
    First, how are unaccompanied children transferred from DHS 
to the custody of ORR? In 2015, we reported that the 
interagency process to refer unaccompanied children from DHS to 
ORR shelters was inefficient and vulnerable to error. We 
recommended that DHS and HHS develop a joint collaborative 
process for the referral and placement of unaccompanied 
children. In response, the agencies recently developed a 
Memorandum of Agreement that provides a framework for 
coordinating responsibilities. However, it is still under 
review and has not yet been implemented.
    As DHS and HHS finalize and implement this Joint Concept of 
Operations, they will need to ensure that it includes a 
documented interagency process with clearly defined roles and 
responsibilities as well as procedures to disseminate placement 
decisions.
    The second question I will address is: How does ORR monitor 
the care of these children while they are in ORR facilities? In 
2016, we reported that ORR relies on its grantees to provide 
care for unaccompanied children, including housing and 
educational, medical, and therapeutic services. However, when 
we reviewed 27 randomly selected case files, we found that 
documentation of certain required services was often missing, 
and ORR was not conducting timely monitoring visits to all 
facilities.
    More recently, ORR has reported taking steps to improve 
monitoring of grantees' provision of services and is currently 
revising its monitoring tools. These tools are expected to be 
completed by the end of fiscal year (FY) 2018. These revised 
tools, along with more timely monitoring, should help ensure an 
improved monitoring program as we recommended.
    Third, how does ORR identify and screen sponsors? ORR 
grantees are also responsible for assessing the suitability of 
potential sponsors who can care for the children after they 
leave ORR facilities. Potential sponsors must complete 
application packages and provide documents to establish their 
identity and relationship to the child, and grantees are to 
conduct background checks on potential sponsors, and the type 
of rigor these checks depend on the sponsor's relationship to 
the child. Also, in a small percentage of cases, a more 
detailed home study must also be conducted.
    In our 2016 report, we found that nearly 60 percent of 
children who entered the country in prior years were released 
to a parent, and fewer than 9 percent went to unrelated 
sponsors.
    Finally, what is known about services received by children 
after they are released to sponsors and their eventual 
immigration status? In 2016, we reported that little 
information was available on the post-release services provided 
to children and their sponsors. At that time less than 10 
percent received post-release services. Since then, eligibility 
has expanded, and in 2017, 32 percent received post-release 
services.
    Additionally, starting in August 2015, grantee staff are 
required to call and check up on children 30 days after they 
are placed with sponsors. However, ORR still does not collect 
uniform data from grantees on post-release services as we 
recommended.
    With respect to these children's immigration proceedings, 
the outcomes for many children have still not been determined. 
Some have been granted asylum, but most are still awaiting 
final disposition of their cases.
    In summary, DHS and HHS have both take steps to improve the 
process of placing and providing care for unaccompanied 
children, but their efforts are incomplete. There is more to be 
done to ensure that our recommendations are fully implemented.
    This concludes my statement. I am happy to answer any 
questions you may have.
    Senator Portman. Thank you, Ms. Larin. I appreciate it.
    As I said earlier, I am going to delay my questions to give 
members here an opportunity to ask questions and get back to 
their other hearings and other responsibilities.
    I will say, just to clarify, the Joint Concept of 
Operations you talked about has been worked on for 26 months, 
and it was over a year ago when it was promised, not by us 
requiring you to do it but promised by the two agencies, and so 
that is one reason we are here. Obviously, you have raised a 
number of issues about a lack of information regarding what 
happens to these children after they leave HHS and go with 
sponsors that is troubling, which we will get into later. 
Senator Carper.
    Senator Carper. Let me just ask my Democratic colleagues, 
anybody have a need to leave soon?
    Senator Heitkamp. I am good.
    Senator Carper. You are good? Claire?
    Senator McCaskill. I am good.
    Senator Carper. OK, good. Thank you all for your testimony. 
I was thinking about the hearing, and I was thinking about 
three categories: One, where are we making progress? Where is 
it clear that we are making progress? And where have we made 
progress? Where are some areas that are underway? Ms. Larin 
actually talked about one of those, she mentioned we are still 
looking for the implementation, I think, of the plan. The 
Joint--there you go. Say it out loud.
    Ms. Larin. The Joint Concept of Operations.
    Senator Carper. There you go. I want to come back to that, 
but that is where something is underway, and hopefully we will 
make some real progress soon, even more progress soon.
    Then, last, what are some areas we just flat have not done 
much at all? Finally, where can we help you? What have we done 
that is helpful? We just passed a big appropriations bill, as 
Senator Lankford knows, to fund the government for the rest of 
the year. What do we do in that appropriations bill that 
actually helps address some of these issues, these funding 
issues that we talked about?
    Let us start off with the second area. Where is progress 
underway? Ms. Larin, you talked about the fact that we do not 
have the implementation yet. We have pretty good collaboration. 
Let me just talk about when can we expect the implementation to 
be not just a good idea, not just beginning, but actually done? 
Mr. McCament, if you would go first.
    Mr. McCament. Thank you, Senator, for that question. With 
respect to the Joint Concept of Operations, and accurate as you 
all have reflected, we have been working through several 
iterations of that draft, beginning in----
    Senator Carper. How long have you been working on it?
    Mr. McCament. It is my understanding, Senator, it began in 
October 2016.
    Senator Carper. A year and a half?
    Mr. McCament. A year and a half.
    Senator Carper. Why so long?
    Mr. McCament. In my understanding of the process, Senator, 
there have been several drafts initially on portions of the 
Joint Concept of Operations. With respect to care and 
transportation and processes, screening processes, there were 
those three sections. It is my understanding that our teams 
worked closely together in each one of those, working out key 
operational issues. It has been protracted, absolutely, and we 
have exchanged----
    Senator Carper. I think you are being kind. It is way too 
long.
    Mr. McCament. Far too long.
    Senator Carper. Way too long.
    Mr. McCament. But we have exchanged a reviewed draft that 
has gone through for DHS, gone through full DHS clearance, and 
the current iteration we have been able to provide back to our 
HHS colleagues for their review. We are likewise hopeful that 
collectively we will be able to move this.
    If I may, it is important to note as well that the Joint 
Concept of Operations, to your point, Senator, is a 
memorialization of our current procedures, which is to say that 
we are doing much of this. However, to the point also, this has 
not been memorialized in the Concept of Operations, which, to 
the Chairman's point, we promised and committed to in our own 
MOA. Currently we have the exchange with HHS on this iterative 
draft that has gone through full DHS clearance, and----
    Senator Carper. If you can just stop, hear a clear message 
from all of us. Get this done.
    Mr. McCament. Yes, sir.
    Senator Carper. Get this done. Way too much time has 
passed. We want to impart a sense of urgency. Get this done.
    Mr. Wagner, your thoughts?
    Mr. Wagner. Senator, you have recently been made aware of 
the Memorandum of Agreement that was concluded between our 
Departments. I would like to say that we have an excellent 
working relationship with our partners at the Department of 
Homeland Security. This is a big accomplishment, and it 
addresses many of the concerns that were highlighted in the 
Committee's interest to get a Joint Concept of Operations done. 
We have taken a large step toward the conclusion of the JCO by 
the conclusion of this MOA, which governs information sharing.
    I actually changed my comments today. I changed my comments 
to indicate that, going forward, we are going to conduct a 
background check on all sponsors, a fingerprint-based 
background check on all sponsors; whereas, in the past we had 
not done that with parents. This is the sort of improvement in 
our screening that is made possible by DHS' cooperation with us 
on this information-sharing agreement.
    New political leadership of both Departments insists on 
taking a look at the situation governing UAC, precisely because 
of what this Committee highlighted in the terrible Marion, 
Ohio, case. We want to make sure that is never repeated.
    Senator Carper. You can stop right there. I do not have 
unlimited time. Again, my same message. Let us get this done. 
The other thing is that this new Administration has been in 
office now for 16 months. I can understand some delay in the 
stand-up, but it has been 16 months, and we need to get this 
done.
    Do you want to comment on anything they have said, Ms. 
Larin, before I ask my last question? No? OK.
    Given how much we ultimately need to rely on State and 
local officials to ensure that children in HHS' custody are 
going to school and are safe from abuse and neglect, I am 
concerned that there does not appear to be a very close 
partnership between your Department and State law enforcement 
and child welfare agencies. I think it makes sense for HHS to, 
at the very least, provide notice to States before a child is 
placed somewhere so they can offer the child or his or her 
sponsor services or guidance in handling school and the legal 
process. Why doesn't HHS do that today?
    Mr. Wagner. As part of the release procedure, we are giving 
the sponsor information required for them to provide these 
services to the children. As the Chairman indicated, we are 
looking at more collaboration with local law enforcement in the 
case of releases of UACs for whom we have concern. But we are 
doing our best to equip the families to provide the services 
that they have committed to in their sponsor plan going 
forward.
    Senator Carper. All right. I will reserve my time for the 
next round of questions. Thank you.
    Senator Portman. Thank you. Briefly, in terms of the timing 
here, 26 months since we started this process, over a year 
since you promised it in your own Memorandum of Agreement. We 
are told this morning that the new Memorandum of Agreement has 
nothing to do with the Joint Concept of Operations, and that is 
good because we are looking for a detailed description of who 
is responsible. It is all about accountability. This is not 
just because we want to document. We want to know who is 
accountable. The data continues to come in. We talked about 
1,500 kids who are unaccounted for, missing. Recent data we 
just learned is that you do some home visits, but you do those 
for 482 of the 3,570 kids who are with non-family sponsors. We 
are just not keeping track.
    With that, Senator Peters.
    [No response.]
    Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you very much, Mr. Chair and Ranking 
Member, and good morning to our panelists.
    Mr. Wagner and Mr. McCament, I want to follow up on the 
issue that Senator Carper was just talking about because I am 
concerned with the answer that indicates that you do not 
usually notify State or local officials that children are being 
placed with sponsors in their areas. As a former Governor, that 
is really concerning to me. The other thing that is really 
concerning to me is there has been in some of the background 
materials I have read an indication that the Department still 
says the States and localities are responsible for these 
children's safety, but if you do not notify them, it is pretty 
hard for them to step up and take on that responsibility.
    It seems like a fairly straightforward task to notify the 
States and localities when these children are placed. Mr. 
Wagner, why don't we start with you? What is standing in the 
way of notifying State and local authorities?
    Mr. Wagner. Senator, I think it is an issue of 
practicality. These families are integrated in their 
communities. They are accessing services that are available to 
all citizens of those communities, all residents of those 
communities. You are talking about a substantial list of 
potential local agencies that would need to be contacted.
    Senator Hassan. Let me stop you right there. Why don't I 
ask this: I would like it, and I think from Senator Carper's 
question we have at least two of us who would like, if you 
would commit to looking into this further and making it a 
priority--I am not telling you to notify every single agency, 
but to notify States and localities when you place children 
with sponsors in those communities. The States have an 
interstate compact on how to do this, so it is not like you 
need to start from scratch. But if a child is being, for 
instance, kept at home and abused by a sponsor and a local 
school does not even know the child is supposed to be going 
there, then some of the usual triggers that we have for 
protecting children cannot be triggered, right?
    Would you and Mr. McCament please commit to looking at ways 
that you might be able to notify States and localities so these 
children will have an extra layer of protection?
    Mr. Wagner. Yes, Senator, we would be happy to do that.
    Senator Hassan. Mr. McCament.
    Mr. McCament. Senator, I would be happy to as well. As you 
know, we partner closely from DHS with State and local 
officials.
    Senator Hassan. Absolutely.
    Mr. McCament. I am happy to support in any way that we can.
    Senator Hassan. OK. Thank you.
    I want to move on to another issue, Mr. Wagner. I am also 
concerned about the actions taken by political appointee Scott 
Lloyd, the Director of the Office of Refugee Resettlement, 
which is one of the offices under your purview at the 
Administration for Children and Families. As I am sure you are 
aware, Mr. Lloyd has taken actions blocking young immigrant 
women under ORR care from accessing abortion, even in one case 
where the young woman had been raped. He is a political 
appointee who has gone to great lengths to intervene in these 
young women's care, personally meeting with them to try to 
coerce them and preventing them from meeting with attorneys.
    We have also learned that he actually receives weekly 
spread sheets with information on every pregnant woman in ORR 
custody, tracking the gestation and whether the woman has asked 
for an abortion. Weekly spread sheets. That is invasive and 
entirely inappropriate.
    Mr. Wagner, were you aware of these weekly spread sheets?
    Mr. Wagner. Senator, going back to 2007, it has been the 
policy that all major medical treatments for UACs go to the 
Director of the Office of Refugee Resettlement for review.
    Senator Hassan. Let me be clear. The 2007 to 2008 policy is 
about significant medical things. The 2017 policy that Mr. 
Lloyd has been invoking only singles out abortion. To have a 
senior political appointee directly, personally intervening and 
trying to block young women from their constitutionally 
protected health care and privacy is wrong. I am very concerned 
that the Department has allowed it to happen. I am pleased, 
though, that a Federal court just last month ordered the Trump 
administration to stop blocking young immigrant women in 
Federal custody from getting abortions.
    Will ACF comply with the court order?
    Mr. Wagner. Of course, Senator.
    Senator Hassan. OK. That is good to know. And you are 
complying with it now?
    Mr. Wagner. We are, and the case has been submitted for 
review.
    Senator Hassan. The case has been appealed, but the court 
did not stay its order pending appeal, correct?
    Mr. Wagner. That is correct.
    Senator Hassan. You have an obligation to follow the court 
order right now.
    Mr. Wagner. We do, and, of course, we are abiding by the 
court order, Senator.
    Senator Hassan. OK. For the record, I want to read Jane 
Doe's statement from October 25, 2017. This is one of the young 
women whose access to health care was interfered with by Mr. 
Lloyd.
    She says, ``I am a 17-year-old girl that came to this 
country to make a better life for myself. My journey was not 
easy, but I came here with hope in my heart to build a life I 
can be proud of. I dream about studying, becoming a nurse, and 
one day working with the elderly.''
    ``I was told I was pregnant. I knew immediately what was 
best for me then, as I do now, that I am not ready to be a 
parent. While the government provides for most of my needs at 
the shelter, they have not allowed me to leave to get an 
abortion. Instead, they made me see a doctor that tried to 
convince me not to abort and to look at sonograms. People I do 
not even know are trying to make me change my mind. I made my 
decision, and that is between me and God. Through all of this I 
have never changed my mind. This is my life, my decision. I 
want a better future. I want justice.''
    That is Jane Doe's statement, and I hope very much that you 
will all take it to heart. Thank you.
    Mr. Chair, I yield the remainder of my time.
    Senator Portman. Thank you. Senator Johnson.

              OPENING STATEMENT OF SENATOR JOHNSON

    Chairman Johnson. Thank you, Mr. Chairman. First of all, I 
appreciate you holding this hearing, and there is no doubt 
about the fact that we have a number of problems being 
described here that we all want to solve. Nobody wants to see 
any child exploited in any way, shape, or form. I would like to 
bring a slightly different perspective to this. It must be my 
manufacturing background, problem solving. There is a process 
you go through, root cause analysis, that type of thing.
    What we are talking about right now is the problem we have 
in apprehending, processing, and dispersing unaccompanied 
children. That is what we have been forced to do. I have a 
chart--I do not have it right now, but as soon as the DACA 
memorandum was instituted and signed in 2012, this has become a 
crisis level. Let me just quote the numbers. Since 2013, 
195,000 unaccompanied children have been let into this country; 
275,000 family units, to be conservative, times two, that is 
550,000 people. You are, in your agencies, forced to deal with 
750,000 very sympathetic humanitarian crisis individuals. OK?
    I would suggest, if you really want to address this problem 
properly and solve it, we need to identify the root cause, and 
it is that flow that has been caused by a horribly broken legal 
immigration system that incentivizes more and more families, 
more and more unaccompanied children to take that very 
dangerous journey and subject themselves to these depredations.
    Secretary Nielsen in a statement she issued on the caravan 
stated, and I will quote: ``The smugglers, traffickers, and 
criminals understand our legal loopholes better than Congress 
and are effectively exploiting them to their advantage and the 
horrible disadvantage of the children that are being 
exploited.''
    I would kind of like to concentrate on our broken legal 
immigration security and let us stop the flow, let us end the 
incentives for all that illegal immigration, as we are trying 
to handle the processing and dispersing. But the fact of the 
matter is only 3.5 percent of unaccompanied children coming to 
this country illegally are ever returned, and that creates a 
huge incentive for more to come. These kids are dispersed 
around the country. They have access to social media. Their 
friends and family members see that in Central America, and 
more of them come. That is just a basic fact.
    Another problem that we are not even discussing here is how 
many gang members are coming in. I do have a number of pieces 
of information. I would like to enter into the record: a letter 
I sent on May 23, 2017,\1\ once we found out how CBP released 
into the country in 2014 admitted MS-13 gang members. I would 
like to submit for the record an ICE news release dated March 
29, 2018,\2\ talking about Operation Matador, Operation 
Community Shield, 3,200 MS-13 gang members rounded up in 
Operation Community Shield. Finally, a Justice Department press 
release dated November 16, 2017,\3\ talking about Operation 
Raging Bull where 64 of the 267 people caught up in that MS-13 
targeted raid, 64 of those entered this country as UACs. This 
is an enormous problem.
---------------------------------------------------------------------------
    \1\ Letter referenced by Senator Johnson appears in the Appendix on 
page 137.
    \2\ ICE news release referenced by Senator Johnson appears in the 
Appendix on page 141.
    \3\ Justice Department press release referenced by Senator Johnson 
appears in the Appendix on page 145.
---------------------------------------------------------------------------
    Senator Portman. Without objection.
    Chairman Johnson. Thank you.
    Mr. Wagner, let us go through how difficult it is for our 
agencies to cope, for example, with MS-13 gang members. Let us 
walk through the process. I thought Mr. McCament did a pretty 
nice job, so either one of you can answer this. But let us do a 
hypothetical. Let us say you are a 16-year-old gang member from 
El Salvador, and we all know the whole recruitment process and 
the hazing process and how you gain gang membership and the 
crimes committed. Let us say this individual might have 
committed murders in Central America. They walk right up to the 
border. They know the rules, and they say, ``I have a credible 
fear of being persecuted in my country.'' Walk us through the 
process of that hypothetical MS-13 gang member. By the way, 
assume we have no information, because we have very little 
information on these gang members, right? What happens? Let us 
start with DHS, CBP. What does CBP do?
    Mr. McCament. Thank you, Senator. In that instance CBP, as 
they do with all interdictions when they encounter an 
unaccompanied--when they encounter a family unit, and----
    Chairman Johnson. By the way, step through this pretty 
quick. Just boom, what do they do? What happens?
    Mr. McCament. Customs and Border Protection, focusing on 
that particular element, would pull aside that individual and 
begin to question, because there would likely be indicators of 
lack of a family unit, relationship, and in this sense, as to 
your hypothetical of MS-13, not necessarily human trafficking 
per se.
    Chairman Johnson. I will give you the answer. He is going 
to say, ``I have a credible fear of being persecuted.''
    Mr. McCament. Correct.
    Chairman Johnson. OK.
    Mr. McCament. In that instance----
    Chairman Johnson. ``Never committed a crime. I am clean.''
    Mr. McCament. Right, and we would then work to very quickly 
adjudicate and move that person into a location where they 
could be interviewed by a U.S. Citizenship and Immigration 
Services (USCIS)----
    Chairman Johnson. The kid's a good interviewer, he is an 
innocent little waif.
    Mr. McCament. With respect to that, may I add that, as 
Secretary Nielsen pointed out, we have deployed additional 
officers to the border to be able to conduct those credible 
fear assessments as quickly as possible so we can determine if 
there is a false claim----
    Chairman Johnson. But, again, he is really good. He has 
been coached. We have no record of him. What happens in the 
first 24 hours?
    Mr. McCament. So within that----
    Chairman Johnson. We have to step through this pretty 
quick.
    Mr. McCament. We would utilize every access to information 
we would hope we detect. If we do not----
    Chairman Johnson. Let us say you do not detect.
    Mr. McCament. Right, and----
    Chairman Johnson. Obviously, we do not, because there are 
thousands of them.
    Mr. McCament. If we do not detect and we do not find any 
other means by which that person seems to indicate--and they do 
not, to your hypothetical, meet the credible fear claim, we 
would then assess--if they are an unaccompanied alien child, we 
would then--my understanding from the process, we would then 
proceed to put them over to HHS----
    Chairman Johnson. You turn them over to ICE, correct?
    Mr. McCament. Right.
    Chairman Johnson. ICE in 21 days has to turn them over to 
HHS. Again, step through this quickly. I am running out of 
time.
    Mr. McCament. Sorry. As a UAC with no other claim, no other 
assessment, yes, we would then notify and believe we would 
find--under that hypothetical, we have no other information, we 
would notify HHS that they need to be placed into a facility. 
ICE would begin the process of transportation over to that 
facility.
    However, I would note, Senator, that just this last week 
there was a case where there was an MS-13 gang member, 18, but 
posing as a UAC that our Customs and Border Protection officers 
used all their facts, and they determined that.
    Chairman Johnson. We have gotten better, but, again, people 
have obviously slipped through the cracks.
    Mr. McCament. So, otherwise, then----
    Chairman Johnson. I am assuming this kid is good. He has 
been coached. He knows exactly what to say, credible fear, 
credible fear, probably got made-up stories about his 
persecution. What happens with HHS then? Then we receive 
information from DHS regarding each UAC that is put in our 
care, and that transfer occurs in 72 hours. If there is any 
indication of gang affiliation--in your Manchurian Candidate 
case, there is none, so he would go into a normal shelter. 
However, during his stay with us, if clinical staff detect any 
violent tendencies or tendencies to gang participation, he 
would be stepped up into staff secure facilities.
    Chairman Johnson. OK. The fact of the matter is they have 
slipped through the cracks, and I will give some other 
evidence. In Houston, I think, one of the Federal Bureau of 
Investigation (FBIs) task forces identified six homicides 
created by individuals let into this country as UACs. That is 
just in Houston.
    This is the enormity of the challenge. I will end, again, 
the root cause of this problem, the goal of our policy ought to 
be fix our broken legal immigration system, do everything we 
can to reduce and stop the flow so your agencies do not have to 
deal with hundreds of thousands of individuals in this case.
    Thank you.
    Senator Carper. Mr. Chairman, could I reclaim just a few 
seconds of my time? Chairman Johnson and I have focused, along 
with other of our colleagues, on root causes of illegal 
immigration, especially from the Northern Triangle countries. 
If we had a reasonable, comprehensive immigration reform plan 
in place and were implementing that so that people who actually 
wanted to come and work here could do so as a guest worker, go 
back and forth. There are a number of things that we could do 
to help reduce the flow. I like to say catching people coming 
across the border from Mexico into the United States is like 
finding needles in a haystack. We can either make the needles 
bigger or the haystack smaller. That is one of the things we 
need to do, and immigration reform would do that.
    The other thing is we are complicit in the misery of the 
people who live in those three countries by virtue of our 
addiction to drugs. We are complicit. For us to somehow put it 
all on them ignores the reality that we are a big part of their 
problem.
    Thank you.
    Senator Portman. I would say the other part we have not 
heard yet--and Mr. Wagner started to talk about this--is once 
that individual is in the custody of HHS and is being detained, 
then a sponsor is sought. A sponsor then is supposed to be 
responsible for that UAC prior to a court proceeding. As we 
will talk about when I get a chance to ask my detailed 
questions, there is a huge gap there. This is where we lose a 
lot of these UACs. Whether it is the fact that, as we said 
earlier, we have calls that are going out, 1,500 kids in a 3-
month period, they cannot even find where they are or whether 
it is just the time it takes to get into a court proceeding, 
that is a lot of that gap. If you could get someone into a 
court proceeding after keeping track of them until that period 
and having this be an expedited process, you would deal with 
that other point at which people are getting out of the system 
and getting into our communities and causing some of these 
issues. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Let me follow up on that same 
conversation and reaffirm something Senator Carper was saying 
earlier about the need for additional immigration judges. Let 
me just ask, how long does it currently take for a UAC to get 
before a judge? If they are given a notice to appear and they 
are told to appear, what is the average wait time now for them 
to actually appear before a judge?
    Mr. McCament. Senator, I apologize. I do not know that 
number offhand. I can certainly get back to you, because there 
are different--several months but----
    Senator Lankford. Each region is different.
    Mr. McCament. Right, and also----
    Senator Lankford. Give me a ballpark so we can get started 
on it.
    Mr. McCament. I will say, because, again, I do not have it 
in front of me, at least several months or more. I know that is 
a very generic response, but I do not know. We could certainly 
work with the Department of Justice as well. They would have 
those official rates, I believe.
    Senator Lankford. OK. Why don't you get back to us on that 
and let us know what it is. That is different depending on the 
State that they are actually delivered to, and the region and 
such. Give us a ballpark of where that is currently, because we 
know where it was a couple of years ago. I want to know what 
the current status is on that.
    What is our percentage right now of UACs that are actually 
delivered into a home that the individual they are delivered to 
is not a citizen of the United States? Whether that be a family 
member, parent, or a sponsor that is a non-relative, what 
percentage is not a legal resident of the United States?
    Mr. Wagner. We actually do not have that data, Senator. We 
are going to collect it going forward as a result of this 
Memorandum of Agreement with DHS. That is one of the things 
that we will receive from them as part of their assistance with 
the background check. But currently we have anecdotal 
information about the immigration status of sponsors.
    Senator Lankford. The current background check system does 
not check for legal status?
    Mr. Wagner. That is correct.
    Senator Lankford. What does it check?
    Mr. Wagner. Criminal history, local, the State child abuse 
and neglect registry, and currently, up until the MOA, we did 
fingerprint checks on all but parent sponsors.
    Senator Lankford. OK. Ms. Larin, you had mentioned that if 
there is a safety concern in a home--it might have been you, 
Mr. Wagner. I am trying to think of who it was. If there is a 
safety concern in the home, that is reported to local law 
enforcement. How often does that occur?
    Mr. Wagner. Senator, I do not have that in front of me. I 
would be happy to get back to you on that.
    Senator Lankford. It would be good to just know how often 
that occurs, if that has occurred. I assume there is a record 
of that, just to know. There is also the question--Mr. Wagner, 
you had made the comment about false documents, when we 
identify false documents. How often does that occur?
    Mr. Wagner. Senator, I do not have that information in 
front of me either. I would need to get back to you on that.
    Senator Lankford. OK. Compare for me, then, ORR standards 
and State foster care standards for the home studies and the 
evaluation they do. You can take any State, any situation. As 
far as the home studies, the background, would these 
individuals that these UACs are being placed in, especially 
those that are not family members, would these homes qualify in 
that State as a foster care home and they meet that level of 
standard? Or is there a different standard if you are foster 
care for the State than what they are when they are coming in 
with ORR?
    Mr. Wagner. Senator, I am not an expert on the child 
welfare system. I am going to hazard a guess that, particularly 
in cases where we do a home study, the standard is comparable. 
Our UAC homes are equal to foster care homes in the State child 
welfare system. But let me look into that further and give you 
a more comprehensive----
    Senator Lankford. That is a fair balance in a State. 
Obviously, a State has determined that an individual who needs 
additional care that is not with a parent, especially in a home 
that there is not a parent that is there, to try to figure out 
what--is there a different level, basically, or a different 
standard, especially if that is a lower standard for those 
individuals to come in? What are the numbers at this point of 
UACs that are not appearing for their Notice to Appear? What is 
the most current number for that?
    Mr. Wagner. We do not have visibility on that because it 
is----
    Senator McCaskill. It is 58 percent so far in 2018.
    Senator Lankford. OK. Agree or disagree with that number?
    Mr. McCament. That is my understanding as well. The number 
might be slightly higher, so we will confirm that.
    Senator McCaskill. I have out of the 6,237 cases completed 
fiscal year 2018 to date, 3,636 of them have been in absentia.
    Senator Lankford. Let us say somewhere around 58 or 60 
percent of the individuals are not showing for their Notice to 
Appear. Do we know why? Or do we know where they are? We have 
every variety here, I would assume, but when we have a child 
that has been released into the country and then there is a 
Notice to Appear and then they do not appear, especially with 
an individual that is not staying with a family member, what I 
am trying to determine is has this individual been trafficked 
because they were placed in a home with a person that is not a 
family member, we have lost track of where they are, they are 
not showing up for court hearings? Are they still in the same 
State? Are they still in the same school? Where are they? Or 
are they in a situation they have been placed in a home where 
the family is not legally present in the United States and they 
have fled to another State? Do we know?
    Mr. McCament. Senator, we do not know when someone fails to 
appear necessarily the reasons why, and I need to caveat the 
following: Not necessarily knowing the reasons why, we may not 
know where they are or why they did not appear. However, I will 
note that as part of the responsibilities for the Department of 
Homeland Security, ICE retains the immigration case record 
through our field office juvenile coordinators, meaning that 
once that person is transferred over to HHS custody, we still 
do have their file.
    Senator Lankford. But does HHS try to pursue them? We now 
have a child somewhere in the country that did not appear in a 
court record, is not in their spot that we thought they were? 
Is there a pursuit to try to figure out where they are? Or what 
happens next?
    Mr. Wagner. There is not a pursuit. We give DHS visibility 
on where the child has been placed. Going forward, again, as a 
result of the MOA, we will give them the opportunity to share 
with us information about the sponsors and their suitability. 
But once we provide that information, then we do not have a 
mechanism for tracking down the kids.
    Senator Lankford. One of the ways that we could help 
protect this, as Senator Carper had mentioned before, is more 
immigration judges so that we are not waiting several months or 
a year or whatever that time period is, so we do not have this 
big gap, we are able to get them due process faster to be able 
to determine does this individual qualify for asylum, or do 
they not qualify for asylum, because that is really what we are 
dealing with in that Notice to Appear. Correct?
    Mr. McCament. Yes, Senator.
    Senator Lankford. The challenge is how do you actually get 
to that due process faster so we do not have individuals 
released and we do not know where they are an what has happened 
and if they have been trafficked or if they are just with a 
family on the run or whatever it may be.
    Mr. McCament. Yes, and, Senator, if I may, with respect to 
Chairman Johnson's point earlier, if we do have information 
about them, to your point, we need to avoid the pull factors, 
so the shorter amount of time for them to appear will also, we 
hope, restrict that, which is why we are----
    Senator Lankford. Again, going back to Senator Carper's 
statements earlier, the United States taxpayers have put about 
$650 million a year for the last two years into the Northern 
Triangle and the Alliance for Prosperity to directly deal with 
all the issues that we have already discussed here on how we 
can deal with some of those factors that are the push factors 
in Central America. We have not dealt with the pull factors on 
our side as well.
    I yield back.
    Senator Portman. I think these points you have made are 
very important to the ultimate purpose of this hearing, which 
is to figure out how to close these gaps and how to be sure 
that these UACs are being properly tracked.
    I will say the next panel, if you can stick around, will 
include some service providers who will maybe provide us some 
more data and also some more substantive information about how 
this actually works, how you actually get these children into a 
courtroom and get this resolved as quickly as possible. It is 
months, and we do not have the data we need to determine how 
many months on average. The service providers should be able to 
tell us more. Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman, and thank you so 
much for making this an issue for the Permanent Subcommittee on 
Investigations. These children are the most vulnerable children 
that we have in North America. We can argue about whether they 
should be here, but because they are here, they are ours, and 
they are our responsibility.
    I want to remind the witnesses, this is the Permanent 
Subcommittee on Investigations. This is not a typical hearing. 
This is an oversight hearing. We want answers, and I challenge 
you to go back and read the answers to the questions. I have 
been sitting here for most of the questioning. There is a lot 
of, ``I do not know,'' ``I cannot answer that question.'' That 
should not be where we are right now. We have been at this a 
long time. This started with Claire when Claire was Ranking 
Member. This is not a new topic. For you guys to come, in my 
opinion, fairly unprepared, with really no solutions makes me 
wonder if there is really a commitment to changing outcomes for 
kids.
    Are there bad kids in this group? I will bet you there are. 
I will bet you Senator Johnson is right. But we take that small 
number of kids who are up here to join the gang and to continue 
that criminal enterprise, and we compare it with the large 
number of children who are here, sent by their parents, all 
alone, and now they are the most vulnerable. You are the worst 
foster parents in the world. You do not even know where they 
are.
    I want to correct on the record, Senator Johnson always 
equates this problem with DACA. These kids do not qualify for 
DACA. They will never qualify for DACA as far as we know. But 
let me tell you, they are here because there was a bipartisan 
bill passed years ago that said these are vulnerable children 
and we are going to give them special protections and protect 
them. They have come to the United States of America. We wish 
they would not. We would love to see their families reunited 
and live safely where their home is. But they are here.
    Contrary to talking about how we are going to stop them, 
the subject of this hearing is when they are in our custody, 
when they have come across the border, how do we track them? 
How do we know where they are? How do we get them through the 
adjudication process, and send them home if that is possible? 
We are failing. I do not think there is any doubt about it. 
When we fail for kids, it makes me angry.
    The fact that we--I mean, I think what we are hearing today 
is if I asked you for a list of kids who came in through this 
program and I said, ``Where are they exactly today?'' at least 
in proximity, in a neighborhood, in a school, ``Where are they 
today?'' would you know the answer?
    Mr. McCament. Thank you, Senator, and we understand.
    Senator Heitkamp. The answer is no, right?
    Mr. McCament. If I may.
    Senator Heitkamp. Yes.
    Mr. McCament. The response that I provided to Senator 
Lankford that ICE holds an immigration case file that includes 
biographic information on the UAC, their last known residence, 
and the sponsor's name, we hold that information. To your 
point, a change has not been communicated to us, it is my 
understanding we would not necessarily--this is a long answer. 
We would not necessarily then know the next residence, so the 
point of someone not showing up at the NTA, if they have 
changed locations and that has not been communicated.
    Senator Heitkamp. I think I am not as angry at your agency 
as I am HHS. I understand. We do not want you to be baby 
sitters. We do not want you to be foster parents. I have said 
frequently the worst thing that happens in border protection is 
we have Border Patrol guards who carry guns changing diapers. 
That is not a good use of their time. We need to end that. We 
need to figure that out.
    It is HHS. This is not a new problem. We have been at this 
a long time. Where are these kids? Why don't we know where they 
are? Why after months of investigation by this Committee, do we 
not seem to be getting any better answers, Mr. Wagner?
    Mr. Wagner. The answer to your question depends on what 
sort of timeframe you are talking about. If you are talking 
about the 30 days after release to a sponsor that we have 
determined to be qualified to provide for the care and safety 
and well-being of the kid, I think we are getting pretty close 
to 100 percent of those cases, we know where they are.
    When you are talking about as time goes on, things change, 
yes, kids run away; no, we do not have the capacity for 
tracking down runaway UACs who leave their sponsor.
    Senator Heitkamp. What do you think would happen in IV-E 
program--the IV-E program is federally sponsored funding for 
foster care that the States access to pay for foster care kids. 
That is IV-E. In order to get that money, you have to be a 
responsible State and know. What would happen, do you think, 
with IV-E dollars in a State that said, we know where they are, 
we turned them over to a foster parent, we did not do any--I 
mean, as we know, not a lot of home visits, not a lot of follow 
up. If they ran away, we do not know. What do you think that 
you would do with the IV-E program in a State that had that 
kind of response?
    Mr. Wagner. Senator, you are constructing an additional 
legal responsibility which, in our view, does not currently 
exist with the UAC program. Our legal responsibility is to 
place these children in suitable households. In the IV-E 
program----
    Senator Heitkamp. And then forget about----
    Mr. Wagner [continuing]. It would be a crisis, and every 
State has a child protective service agency to deal with those 
situations. We do not have that apparatus.
    Senator Heitkamp. You have no intention of creating that 
apparatus. You have no intention of having a database--I do 
need to understand where you think your lines of jurisdiction 
are. You have no intention of ever trying to solve the problem 
of here we gave the kid to the guy who said he was her uncle, 
we gave her to the uncle, and we found that was OK, and now we 
told the State maybe, or we did not tell the State, and good 
luck to that 15-year-old who went to her uncle.
    Mr. Wagner. I do not agree with your characterization of 
the decisionmaking process. However, as you know, this is an 
expensive program. Our duty is to execute the will of Congress 
and the President, which we will do faithfully. If you tell us 
you want us to track down----
    Senator Heitkamp. I think our duty is a little more 
humanitarian than that. But can you tell me that in every case 
you notify the State agency that you have placed a minor in the 
custody of a suitable sponsor?
    Mr. Wagner. No, Senator, it is not our procedure to----
    Senator Heitkamp. But you are telling me that the backdrop, 
the protection for that kid now falls on the State, even though 
you do not even give the State the courtesy of telling them 
where they are. Is that what I understand? I just have to say 
these are all of our children, and if we cannot figure out a 
high priority for protecting kids, we know these kids are at 
high risk for trafficking. We all care about that. They are at 
high risk for labor trafficking, for sex trafficking, and we 
have to reach beyond the letter of the law and do what is 
humanitarian, do the right thing.
    I look forward to the ongoing investigation maybe coming up 
with some suggestions, and God knows you have a tough job. I am 
not saying that. But we have high expectations when it comes to 
kids, and we should.
    Senator Portman. Senator McCaskill.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. The hearing that we had in PSI--I want 
to thank the Chairman for this hearing. I think it is really 
telling that we got a new Memorandum of Understanding (MOU) at 
midnight last night because you called this hearing. I have no 
absolutely no confidence that would have happened had you not 
called the hearing. Thank you for doing the hearing.
    Our original hearing on this, as you remember, Mr. 
Chairman, was July 13, 2015. I will ask each of the witnesses--
first, certainly Mr. McCament and Mr. Wagner, have you read 
that report?
    Mr. McCament. The staff Committee report?
    Senator McCaskill. The Committee report that was done after 
our hearing on unaccompanied minors and how they were being 
handled. Have you read that report?
    Mr. McCament. Yes, ma'am, I did read it.
    Senator McCaskill. Mr. Wagner, have you read the report?
    Mr. Wagner. Pertaining to the Marion, Ohio, case? Yes.
    Senator McCaskill. This was a detailed report that went 
through all of the findings of our investigation, including 
home studies, not appearing in immigration--all the things we 
are talking about today. We made one, two, three, four, five, 
six findings in that report. Have you had a chance to review 
that report, Mr. Wagner?
    Mr. Wagner. I have reviewed the report entitled 
``Protecting Unaccompanied Alien Children from Trafficking and 
Other Abuses: The Role of the Office of Refugee Resettlement.''
    Senator McCaskill. Perfect. First, I am a little concerned 
that you are asked a question about how many unaccompanied 
minors are not showing up for their hearing. You do not have 
the number, but I do. It is supposed to be the other way 
around. That is pretty basic if one of our findings in the 
report is that these unaccompanied minors are not showing up 
for their hearings.
    Keep in mind our report found that 53 percent of the 
unaccompanied minors were not showing up. In this fiscal year 
so far, it is even worse.
    Can you give me any specific thing that you are doing to 
track the children that are not showing up for their hearing, 
one specific thing you are doing?
    Mr. Wagner. Senator, are you addressing that to me?
    Senator McCaskill. I am. You have responsibility. You take 
them from the Department of Homeland Security, and you have the 
primary responsibility, once they are given over to you. Now, I 
know that you have historically washed your hands once they got 
a sponsor, but it is still your responsibility. Can you give me 
a specific example of something you are doing to find out why 
the children are not showing up at these hearings?
    Mr. Wagner. My response was that the Department of Health 
and Human Services does not have visibility on immigration 
hearings. We do not know who is showing up and who is not. We 
do not know those kids----
    Senator McCaskill. You do because you gave me--we have 
these publicly available numbers. You know how many are not 
showing up.
    Mr. Wagner. I do not think they came from me.
    Senator McCaskill. According to the Executive Office of 
Immigration Review (EOIR)--I guess it does not come from you. 
You can get them, though. We got them. It seems to me that if 
it is your responsibility, you should at least know who is not 
showing up. They will not tell you where they are? You do not 
know where they are supposed to be? You do not know when they 
are supposed to have a hearing? You cannot find that out?
    Mr. Wagner. We could find it out, but it is not part of our 
protocol for post-release. We do not follow up to ensure that 
they go to the hearing.
    Senator McCaskill. I do not even know what to say. It is 
just like stunning. I just got this information very late, but 
there are three categories of sponsors. Category 1 is parent. 
Category 2 is a relative. Category 3 is very distant relative 
or not a relative at all. In calendar year 2017, there were 
29,761 children released by your agency, Mr. Wagner, to one of 
those three categories. The category that would seem to me to 
be the most dangerous for the children would be Category 3. 
Would you agree?
    Mr. Wagner. If you are talking about categories, I think I 
would agree, but not individual sponsors. I mean, all of these 
sponsors are vetted, so it is----
    Senator McCaskill. I understand.
    Mr. Wagner [continuing]. Not the case that we put our 
dangerous sponsors----
    Senator McCaskill. They are getting a criminal public 
records check and a sex offender registry check, correct?
    Mr. Wagner. Going forward, Senator, all sponsors will 
receive a fingerprint-based background check.
    Senator McCaskill. OK. But what you had been doing for 
calendar year was a criminal public record check and a sex 
offender registry check. You did that on all of these. I see 
that you did it on all 29,761 sponsors that were released. But 
I want to hone in our Category 3. Would you agree that Category 
3 is the one that is most dangerous for the children when they 
are not with a parent or a close relative?
    Mr. Wagner. I do not know how to respond to that, Senator. 
I have confidence in our decision to select sponsors in all 
categories.
    Senator McCaskill. OK. Now there are home visits. Would you 
think that Category 3 should get a priority for home visits 
over Category 1 where there are parents in the home?
    Mr. Wagner. I think that the top priority for home visits 
is the categories that were articulated in the TVPRA, the four 
categories of most vulnerable kids. All of those kids get home 
visits, in addition to kids that our staff have identified as 
being particularly vulnerable. A you know, we have----
    Senator McCaskill. Isn't a child more vulnerable that is 
not with a family member?
    Mr. Wagner. Again, Senator----
    Senator McCaskill. Isn't that common sense?
    Mr. Wagner. I would not draw that conclusion.
    Senator McCaskill. You would not?
    Mr. Wagner. No.
    Senator McCaskill. I think you would be a very small 
minority in the United States of America. I think a child who 
has been placed--if you look at what happened in Ohio, if you 
look at the tragedies we have seen around this country, it has 
been when, unfortunately, there has been someone trying to prey 
upon these children that was not a family member. If you do not 
want to acknowledge it for purposes of this hearing, it just 
makes me scratch my head about common sense.
    But what is really interesting is when you look at the home 
visits, there are more home visits going on in the homes where 
there are parents than there are in the homes where there are 
no relatives. In Category 1, which is parents, there were 1,302 
home visits in calendar year 2017; in Category 2, where it is a 
close relative, 888; and in Category 3, there were only 482--
for a grand total of 2,672 home visits out of 29,000 children 
who have been released.
    In Missouri, we had nine home visits. In Ohio, they had 29. 
I would like follow up on the home visits and the 
prioritization of who is getting the home visits. Your 
unwillingness to acknowledge that someone who is not related to 
a child is more dangerous than a parent is something I would 
like you to give some thought to, and I will be following up 
with the Secretary of HHS to see if that is his view, because I 
cannot imagine that would be the view of this Administration, 
that a child with a parent is not in any more a secure 
situation than a child with a stranger.
    Mr. Wagner. To clarify my point, Senator, at the beginning 
of the process I would agree. If you have two people coming in 
the door who want to sponsor a kid and one is a parent and one 
is an unrelated adult, I would agree absolutely that the 
unrelated adult deserves greater scrutiny. My point is, at the 
end of the process, after we have gone through the scrutiny, I 
think the kid is equally safe with both households.
    Senator McCaskill. I guess I have too much experience 
prosecuting child abuse, and too many times I have been looking 
at the reports that come in through the hotline, with foster 
parents who on the surface appear to be great folks but have 
committed unspeakable horrors against children. Maybe my 
experience is coloring my judgment here, but I think it is 
experience grounded in reality. I would like your agency to 
take another look at this.
    Overall, as has been said a number of times, it has been 14 
months since you agreed to have the JCO, and I think doing 
this, which is what has occurred in this category, you guys 
know that. DHS has gone HHS, HHS has gone DHS, and, this in 
government where one agency points to the other and says, 
``Well, we do not have''--what did you say, ``We do not have 
visual''--``We cannot see that,'' ``We cannot see when the kids 
are not showing up at their hearings?'' That has to stop. That 
is unacceptable. These are children. Someone has to take 
responsibility for these children that are not showing up and 
we have no idea where they are, especially if this 
Administration thinks they are all gang members. You would 
think you would get after that, because that is what they seem 
to be--the President always tries to say that every child 
coming into this country is a gang member, which we know is 
total balderol, it is stupid, it is not true. But if, in fact, 
this Administration believes that and these gang members are 
not showing up for their hearings and you guys are sitting 
around going, ``Well, we do not have''--``we cannot see it,'' 
that does not even make sense.
    There are more answers that we are due on this. Thank you, 
Mr. Chairman.
    Senator Portman. Senator Harris.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. Thank you, Mr. Chairman, for holding this 
hearing. I appreciate it.
    These questions are initially for Secretary McCament.
    Before the House Appropriations Committee on April 11th, 
Secretary Nielsen said that DHS' standard, and I am going to 
quote, is ``to in every case keep a family together as long as 
operationally possible.'' She went on to say that ``DHS only 
separates because the law tells us to, and that is in the 
interest of a child,'' and the reference there was apparently 
to trafficking of children.
    The next day, at another House Appropriations hearing, CBP 
Commissioner Kevin McAleenan stated that, ``A separation of a 
group that presents as a family unit is as of right now a very 
rare event.''
    However, last week HHS' Office of Refugee Resettlement 
confirmed to the New York Times that approximately 700 children 
have been taken from adults who say they are their parents at 
the border since October 2017, most notably including more than 
100 children who were under the age of 4. Reportedly, DHS 
officials initially denied that the number was this high. Is 
this number correct?
    Mr. McCament. Thank you, Senator, for that question.
    Senator Harris. Is the number correct?
    Mr. McCament. The 700 figure represents the number of 
children that came into HHS custody from DHS, not just at the 
border. But, yes, that number is correct.
    Senator Harris. How many of those children were at the 
border?
    Mr. McCament. I do not have that in front of me, Senator, 
but I will get it back to you.
    Senator Harris. I would like it by the end of next week, 
please.
    Mr. McCament. Certainly.
    Senator Harris. How many were under the age of 4?
    Mr. McCament. Ma'am, I apologize, but I will confirm the 
number that you mentioned and----
    Senator Harris. Are you not aware of this article?
    Mr. McCament. I am, ma'am. I just do not recollect, and I 
do not want to mislead. I will provide that response.
    Senator Harris. OK. It would seem to me you would have been 
prepared to answer this question today.
    Mr. McCament. Understood, Senator.
    Senator Harris. Since early 2017, DHS officials have made 
inconsistent statements about the consideration of policies to 
forcibly separate children from parents at the border despite 
due process concerns and denunciations from child welfare and 
medical professional organizations. Is DHS still considering a 
policy of family separation for asylum seekers?
    Mr. McCament. Thank you, Senator. We do not currently have 
a policy of separating women and children, but we do seek to 
protect the best interests of the minor children. If there are 
any changes, we would review and notify appropriately.
    Senator Harris. What is the practice if there is no policy?
    Mr. McCament. The practice is for our Customs and Border 
Protection officers, when they encounter a family unit where 
they have concerns about the family relationship, legal 
guardianship, or human trafficking indicators, they will 
separately question; and if they determine that the child, 
unaccompanied alien child, does not have a parent or legal 
relationship or otherwise is perhaps trafficked, we will 
separate that child and then notify HHS and ICE as well to 
transport that child to HHS.
    Senator Harris. Are there any written documents that 
outline this practice for DHS? How are you training the people 
at the border to make these decisions?
    Mr. McCament. Thank you. If I may, our Customs and Border 
Protection officers, and as noted in the GAO report, work--
first, for human trafficking they have a Form 93, which has a 
series of indicators on human trafficking which they will 
review against. Our officers are also trained, correlated to 
that Form 93 and updated periodically, in the indicators of 
human trafficking and the processes and procedures that they 
should have.
    Senator Harris. Are those training materials available in 
writing?
    Mr. McCament. I will confirm that, ma'am. I believe so.
    Senator Harris. And then give us a copy, please.
    Mr. McCament. Yes.
    Senator Harris. Is there a practice or a protocol about 
how--within what period of time the decision and the 
determination should be made about whether that child should be 
separated from the parents or reunified with the parents?
    Mr. McCament. Yes, Senator, there is a requirement that 
within no more than 72 hours, if Customs and Border Protection 
makes a determination that there is not a family relationship 
or indicator of human trafficking or abuse, we need to make 
that determination under the TVPRA and transfer that child, 
unaccompanied alien child, to the custody and protection of 
HHS.
    Senator Harris. Let me be clear, are you saying that that 
decision about whether or not the child is, in fact, with a 
parent or with someone who may harm the child, that that 
decision must be made within 72 hours? Is that what you are 
saying?
    Mr. McCament. Or less, yes.
    Senator Harris. OK. Has that been what is happening?
    Mr. McCament. That is my understanding from our processes, 
yes.
    Senator Harris. Do you have a process in place to audit and 
ensure that that is exactly what is happening, that those 
decisions are made within 72 hours?
    Mr. McCament. Senator, first, to your question, I will 
confirm that with our Customs and Border Protection officers. 
It is my understanding that we do. However, it is also because 
it is required under the TVPRA in that statute. But we will 
confirm back as well.
    Senator Harris. What is the number of children who have 
been separated from adults who say that they are their parents 
and they are seeking asylum at the border?
    Mr. McCament. I do not know that offhand, so I do not want 
to misspeak. I will bring it back to you.
    Senator Harris. Do you have a general idea?
    Mr. McCament. I do not want to speculate, and we will 
provide it back and work with----
    Senator Harris. I would like information on the length of 
separation in each of those cases.
    Mr. McCament. OK. We will work to see if that is available 
and provide it back.
    Senator Harris. How many of those cases or even what 
percentage of those cases have resulted in trafficking charges, 
those cases where the parent has been separated from the child 
for more than 72 hours?
    Mr. McCament. Again, Senator, we will work to provide that 
back so you have the specific number.
    Senator Harris. Do you know if any of those cases have 
resulted in trafficking charges?
    Mr. McCament. It is my understanding that they have, but I 
do not know the specific number, so I want to provide you 
accuracy.
    Senator Harris. What is the protocol that DHS is following 
when you apprehend children to determine the potential case of 
trafficking? What is that protocol exactly?
    Mr. McCament. What does that look like?
    Senator Harris. Yes. Is it in writing?
    Mr. McCament. We will work on providing back information. 
As I mentioned, our officers are trained on that Form 93, which 
is in writing, and it gives indicators of trafficking and 
questions that can be used to provide that analysis. We also 
have training material, so we will work to provide that. It is 
part of the process.
    Senator Harris. Thank you. I just have a couple of seconds 
left. Both for Mr. Wagner and Mr. McCament, my understanding is 
that DHS and HHS have created a new policy where now ORR is 
going to be sharing fingerprints with ICE. Is that correct? 
What is the justification for that if that is, in fact, the 
case?
    Mr. Wagner. That is the case. It is covered in the new 
Memorandum of Agreement that we recently concluded.
    Senator Harris. Is that the one we got at midnight last 
night?
    Mr. Wagner. Yes.
    Senator Harris. OK. Mr. Chairman, if I can just have a 
couple minutes to understand exactly what it is that you have 
done and why is it that you have done that, to create this new 
policy that you gave us at midnight last night before this 
hearing?
    Mr. Wagner. Let me explain, Senator, that the MOA was 
concluded a couple weeks ago. It has a 30-day implementation 
period. It honestly was our hope to have it operational before 
we made it public. That was the reason for the late 
presentation to the Committee. This covers information sharing 
between DHS and Health and Human Services. We think it is a 
substantial step forward because we are going to give potential 
sponsor information to DHS so that they can provide their input 
based on all of the information they have available about 
potential sponsors to us, and that is going to improve the 
quality of our decisionmaking about the appropriateness of the 
sponsors.
    Senator Harris. Is it your intention that DHS will then 
enforce immigration laws?
    Mr. Wagner. We have no such intention at the Department of 
Health and Human Services, but they have their job to do.
    Senator Harris. Is there an indication that the information 
should be shared but not for the purposes of deportation?
    Mr. Wagner. The purpose of the information sharing is to 
help us make a better decision on the qualifications of the 
sponsors.
    Senator Harris. Mr. Chairman, I think there is going to be 
a second round, so perhaps I will use the time then, or 
whatever it is you would prefer.
    Senator Portman. I thank Senator Harris, and I think we are 
going to try to call up the second panel, and I think you will 
find a lot of very helpful information in that second panel 
because the service providers will be there.
    Let me just say quickly--I am going to take this time to 
ask the questions from the Chair that I have delayed. But with 
regard to separation of the kids from their families, Mr. 
McCament, my understanding is that DHS has confirmed that 100 
of those 700 kids last year were under the age of four. My 
understanding is that is something you have confirmed. The two 
points I would make, in addition to the ones that Senator 
Harris made, are that the American Academy of Pediatrics (AAP) 
has indicated that that has a negative impact on kids. That 
seems sort of common sense, to be separated from their 
families. Second, that the financial responsibility, as I 
understand it--correct me if I am wrong--is with the parents so 
long as the kids are with the parents, but then the taxpayer 
picks up the responsibility if you separate them. Is that 
accurate?
    Mr. McCament. Mr. Chairman, that is my understanding, that 
once they are out of the auspices of their parents and go to a 
DHS facility.
    Senator Portman. I am not suggesting that this is an easy 
job, and some people may say they are parents and they are 
really not, and you certainly need to go through that process. 
But to the extent they are actual family members, those 
separations have to be something you have to seriously consider 
because of the impact on those kids and also, the 
responsibility then taken on by the government.
    Let me back up for a second, if I could, and talk about 
what I said at the outset, which is this hearing is an 
opportunity for us to try to get more accountability in the 
system and to tighten up the loose ends, and we have heard so 
many today, the right hand not knowing what the left hand is 
doing. Of course, the focus has been on this Joint Concept of 
Operations because of that. We have been working on this with 
you all for 26 months, over two years, and, again, you promised 
in your own Memorandum of Agreement that you would have that 
completed over a year ago. As of today, it is not completed. I 
appreciate that Mr. Wagner said--and it is true, at midnight 
last night we received this additional Memorandum of Agreement, 
and I do think information sharing is a good thing. But what we 
are looking for is what I thought you were looking for, which 
is an understanding of how this is actually going to operate 
and who is accountable, because if we do not know who is 
responsible and accountable and what the plans are, it is 
impossible for us to do our oversight and for us at the end of 
the day to be sure that this system is working properly for the 
kids, but also for the immigration system.
    I would ask you today--it has been 14 months since you 
promised it. Do you have it with you today? Yes or no. Mr. 
McCament?
    Mr. McCament. I do not have it with me, the latest 
iteration.
    Senator Portman. Mr. Wagner.
    Mr. Wagner. No, sir.
    Senator Portman. OK. What is your commitment to getting 
this done now? We are 26 months into it. We are over a year 
past your previous commitment. What is your commitment you are 
going to make to us today as to when this Joint Concept of 
Operations agreement will be completed? Mr. McCament.
    Mr. McCament. Mr. Chairman, being apprised and learning 
about the significant amount of time, we will be ready in 
partnership with HHS as soon as we receive the draft back, we 
will work as expeditiously as possible. I know that that is not 
to the extent of a timeline, but I will tell you that we are 
ready and we want to partner actively. You are correct that the 
MOA is part of that commitment. It is not all. The JCO 
memorializes our procedures that we already do, but it does not 
happen and collated it in one place. We will work as 
expeditiously as possible.
    Senator Portman. You make it sound so simple, and you are 
also pointing the finger at your colleague here, which has been 
our problem.
    Mr. McCament. Understood.
    Senator Portman. Mr. Wagner, give me a timeframe.
    Mr. Wagner. Sir, we have to incorporate the new MOA in the 
draft JCO. We are months away, but I promise to work diligently 
to bring it to a conclusion.
    Senator Portman. OK. I am not sure I understand why we are 
months away if you seem to have completed your work, you seem 
to know what you want. Let us make a commitment today to do 
this within a timeframe. What is a reasonable timeframe? Give 
me a commitment.
    Mr. Wagner. Do you think, Senator, we could consult on that 
and get back to you?
    Senator Portman. Let us consult, but let us choose a date, 
and let us work toward that date, because we have now had 26 
months of work on this, and these young people continue to fall 
between the cracks. Let us face it. That is what we learned 
today.
    Going on to the issue that was raised earlier, you 
indicated, Mr. Wagner, and in your testimony a moment ago said 
that we know where about 100 percent of these kids are during 
this first 30 days after we release them to a sponsor. That is 
not consistent with the data. That is just not what we are 
learning. These post-release services are not often done, but 
in the follow up calls, we had learned, as we said earlier, 
that about 1,475 kids out of 7,000 roughly that you called, you 
had no idea where they were. That is not 100 percent. That is 
about 19 percent totally unaccounted for. Why did you say 100 
percent?
    Mr. Wagner. I was trying to illustrate to the Senator that 
immediately upon release we know where everyone is and that 
time and tides intervene to change that. At the 30-day mark, we 
completed telephone calls with 86 percent of those we attempted 
to reach. That is not to say that the remaining 13 percent, 14 
percent, are missing or not where they belong. But we were 
unable to confirm that that is where they were.
    Senator Portman. It is actually over 19 percent based on 
your own data because sometimes you place the call, you get 
somebody on the line who said, ``I do not know where the kid 
is.'' By your own data, it is over 19 percent, and you said 
within 30 days. At a minimum let us stick to the facts. It is a 
problem. We have to deal with it. HHS told us this morning that 
if a contract service provider cannot locate one of these 
children, the provider makes a note in the child's file. That 
appears to be about it. Nothing else is done. Am I reading that 
correctly from the information we got this morning? If a 
provider believes a child is not being cared for, it alerts 
State authorities, but apparently not HHS. Is that accurate? 
Two questions for you, Mr. Wagner. One, is it true that other 
than making a note in the child's file, nothing else is done? 
This is from the service provider, again, they cannot locate 
the child. Second, if the provider believes a child is not 
being cared for properly, it does not alert you, it only alerts 
State authorities? Are those two accurate?
    Mr. Wagner. On the first instance, I believe that is 
accurate. There is not a further attempt to locate the child.
    On the second, I think that is incorrect. I think we do 
receive notification from our contractors that they have 
concerns. We would be informed of any concern raised by the 
contractors during the post-release services phase.
    Senator Portman. OK. We learned this morning that about 
half, maybe up to 58 percent of these kids who are being placed 
with sponsors do not show up at immigration hearings. They just 
are not showing up. When a sponsor signs the sponsorship 
agreement, my understanding is they commit to getting these 
children to their court proceedings. Is that accurate, Mr. 
Wagner?
    Mr. Wagner. That is accurate. In addition, they go through 
the EOIR orientation on responsibilities of custodians.
    Senator Portman. When a child does not show up, HHS has an 
agreement with the sponsor that has been violated, and HHS, to 
my understanding, is not even notified if the child fails to 
show up to the proceeding. Is that accurate?
    Mr. Wagner. That is accurate, Senator.
    Senator Portman. So you have an agreement with the sponsor, 
they have to provide this--an agreement with you, HHS. The 
child does not show up, and you are not even notified. I would 
ask you, how could you possibly enforce the commitment that you 
have, the agreement you have with the sponsor if you do not 
have that information?
    Mr. Wagner. I think you are right. We have no mechanism for 
enforcing the agreement if they fail to show up for the 
hearing.
    Senator Portman. Obviously, a red flag when a child fails 
to show up at the hearing. I think we have identified this 
morning so many parts of the system that simply are not 
working, for the children or for our immigration system. I am 
not suggesting that the agreement that we have been looking for 
for 26 months is going to solve all these problems, but at 
least then we will force the agencies to come together and 
decide who is responsible and to close these gaps. Yes, we need 
a more expedited process to get to these hearings. I could not 
agree more. I assume you agree with that, Mr. McCament.
    Mr. McCament. I do, Mr. Chairman.
    Senator Portman. Yes, we need to do more in terms of 
discouraging people through the push factors and the pull 
factors from coming to our country. But, meanwhile, these young 
people are here, and they are falling between the cracks. The 
tragedy of what happened in my home State with regard to these 
kids being trafficked, by the very traffickers that had brought 
them up from Guatemala and made all these false promises to 
their parents about education and taking care of these kids and 
then abused these kids that is something that got us engaged in 
this. But as we have gotten into it, we realize it is far 
broader than that. It is a system that has so many gaps, so 
many opportunities for these children to fall between the 
cracks, that we just do not know what is going on, how much 
trafficking or abuse or simply immigration law violations are 
occurring.
    Let me end my questioning by asking again very simply, when 
are we going to have this agreement completed? If you cannot 
give us a date today, can you give us a date that you will tell 
us when it will be completed? How about close of business on 
Monday that you will tell us by then what the date is that you 
actually have this agreement completed so we can begin to pull 
these pieces together to ensure that the right hand does know 
what the left hand is doing and that we can close these gaps? 
Is that a fair thing for us to ask? Can you tell us by close of 
business on Monday?
    Mr. McCament. Mr. Chairman, to that question, I would ask 
that my colleague and I consult right after this hearing to 
talk about meeting tomorrow on the timeline. I think it is 
reasonable to give that timeline. It is 26 months. I would like 
to discuss with him so that----
    Senator Portman. I am going to take that as a yes, Mr. 
McCament.
    Mr. McCament. Sorry, that was long.
    Senator Portman. You are on board, close of business Monday 
you are going to tell us when you can have this agreement 
completed.
    Mr. Wagner, yes or no?
    Mr. Wagner. That would be fine, Senator.
    Senator Portman. All right. So close of business Monday. 
Ms. Larin is looking on and thinking she would sure like to 
have that agreement, too, as would GAO generally.
    With that, I appreciate your testimony today. I think we 
have uncovered a number of issues that have to be addressed in 
an urgent manner, and I would ask if my colleague, the Ranking 
Member, has additional comments to make with regard to this 
panel.
    Senator Carper. Just very briefly. I have asked my staff to 
check, Mr. Chairman, and to our witnesses, and see what is the 
level of funding that we have provided in the past for 
immigration judges, immigration courts, that sort of thing. I 
was trying to figure it out and will ask you, each of you tell 
us one more thing we ought to be doing to help address these 
problems. What should we be doing? But one of the things we 
sought to do is address the funding issue for immigration 
courts and immigration judges. In 2014, we were providing $312 
million. This year, 2018, we are providing $504 million. That 
is an increase of almost two-thirds over the last four years. 
The funding request for the Administration for 2019 would be 
$563 million. That is an increase of 80 percent since 2014, 
which I was surprised it was that much money. But it is a lot 
of money. One of the problems we have is making sure that the 
folks who need to get into immigration court, they actually 
have the ability to get there, and they actually have access to 
a lawyer before they get there and then actually when they are 
there.
    Ms. Larin, one thing that you think we ought to be doing, 
we in the Legislative Branch, we in this Committee ought to be 
doing to address these issues?
    Ms. Larin. Based on the work that we have done, we made a 
number of recommendations both to HHS and to DHS that remain 
open, so we certainly see work to be done there. But we did not 
make any matters for congressional consideration.
    Senator Carper. All right. Mr. Wagner, what is one thing 
that we ought to be doing here to help address this problem? It 
is not enough for us just to criticize you, hold you 
accountable, and say, faster, get this done. What can we do to 
help?
    Mr. Wagner. Well, thank you, and I appreciate your concern 
about the UAC program, and I am sorry we did not have a chance 
to talk about the incredibly high quality care that they 
receive when they are in our custody, because they are very 
well taken care of.
    Senator, it is a challenging program because of the 
fluctuation of the population, surges, ebbs and flows. I have 
just got to say that I think Congress has been incredibly 
responsive to this program. You have accommodated major 
revisions in our budget requests in the last several sessions, 
and I can only express my gratitude, and I hope we can continue 
to work on those issues going forward.
    Senator Carper. All right. Mr. McCament, give us one thing 
that we ought to be doing more of or less of.
    Mr. McCament. Senator, in keeping with, as my colleague 
mentioned, Congress' interest and focus on this program by 
amending the Homeland Security Act, by the creation of the 
TVPRA, we would really also, as mentioned, want to work closely 
on amending the TVPRA now, putting certain statutory provisions 
for care into law, terminating the Flores Settlement Agreement. 
Those would help further enhance the ability to protect the 
vulnerable population.
    We also, to the subject of this hearing, which we very much 
take to heart, have our own responsibilities on that for 
coordinating our efforts and documenting it. But assistance on 
amending the TVPRA, making some other critical changes, would 
help further protect the population.
    Senator Carper. I am going to ask you the same question for 
the record, so just be prepared to respond to it in writing, if 
you would.
    Mr. McCament. Understood.
    Senator Carper. Thank you all.
    Senator Portman. Thank you all. I would like to call the 
next panel. Thank you for your testimony.
    We have a vote that has been called for 10 minutes from 
now, and so we are going to ask the next panel to come and 
between sworn in very quickly.
    [Pause.]
    We are calling our second panel of witnesses.
    First, Allison Herre, Immigration Legal Services Director 
for Catholic Charities of Southwestern Ohio.
    Ms. Jessica Ramos is an attorney with Advocates for Basic 
Legal Equity (ABLE), in Dayton, Ohio.
    Ms. Kelsey Wong is the program director and project 
director for the Shenandoah Valley Juvenile Center (SVJC) . We 
talked about her earlier.
    Ms. Pattiva Cathell is an English language learners school 
counselor at Sussex Central High in Georgetown, Delaware.
    And Ms. Laura Graham is the deputy director and managing 
attorney of the Delaware Medical-Legal Partnership and 
Immigration Program of Community Legal Aid Society (CLASI) in 
Wilmington, Delaware. That is a mouthful.
    I appreciate you all being with us today, we look forward 
to your testimony, and I apologize for the votes. We are going 
to try to stagger our attendance here so we can be sure and get 
the information that we are really eager to get from your 
testimony and the questions.
    Under the Subcommittee's rules, all witnesses are required 
to be sworn in, so I would ask you at this point if you would 
please stand and raise your right hand. Do you swear that the 
testimony you are about to give to the Subcommittee is the 
truth, the whole truth, and nothing but the truth, so help you, 
God?
    Ms. Herre. I do.
    Ms. Ramos. I do.
    Ms. Wong. I do.
    Ms. Cathell. I do.
    Ms. Graham. I do.
    Senator Portman. Having heard the affirmative from all of 
our witnesses, we will get started. We will use the timing 
system, as we talked about earlier. You have five minutes in 
your presentation, but your entire written testimony will be 
printed in the record.
    Let us start with Ms. Herre.
    Senator Carper. Before you start, let me just say to our 
witnesses, I am an Ohio State guy, so I have a special 
affection for our witnesses from Ohio, and a great affection 
for our witnesses and gratitude to our witnesses from Delaware. 
Pattiva and Laura, thank you very much for coming and for 
sitting as long as you have to wait for this opportunity. We 
have one witness who is not from Ohio, who is not from 
Delaware, and we are delighted that you are here, too.
    Thank you all.

 TESTIMONY OF ALLISON E. HERRE,\1\ IMMIGRATION LEGAL SERVICES 
       DIRECTOR, CATHOLIC CHARITIES OF SOUTHWESTERN OHIO

    Ms. Herre. I would like to start by thanking Chairman 
Portman and Senator Carper for inviting me to testify this 
morning. Before I begin my written remarks, I do want to 
address a line of questioning that Senator Harris began with 
HHS. She was asking about the Memorandum of Understanding 
whereby now ORR is going to be using ICE for background check 
support. While we support the efforts of safe placements of 
UACs in the United States and encourage a thorough background 
check, the problem with having ICE involved in the background 
checks for UAC sponsors is something that was addressed or 
tried to be addressed through the Flores litigation in the 
1990s. Families were afraid to come forward and claim their 
children that were at the border because that information was 
shared with legacy INS. They were afraid to come forward in 
terms of their own immigration safety and status. I believe 
that this Memorandum of Understanding or at least this piece of 
it--and I have not read it, admittedly--would lead to a 
prolonged separation of children from their parents and 
sponsors and a prolonged detention of UACs in government 
custody, which is what the Flores Agreement seeks to address.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Herre appears in the Appendix on 
page 99.
---------------------------------------------------------------------------
    Now, the issue of unaccompanied immigrant children is very 
near and dear to me. I applaud the efforts of this Committee in 
bringing to light the opportunities presented by the UACs 
residing in the United States. As an immigration attorney at a 
Catholic nonprofit social service agency, I work directly with 
UACs, their sponsors, and the community organizations that 
support them. I am here to provide a voice for their stories, 
and I have two stories that I would like to share with you 
today.
    The first story exemplifies the benefits of the existing 
protections for UACs in the case of ORR. In the summer of 2016, 
my safe release support specialist, who provides fingerprint 
services and assistance in completing the family reunification 
packet to potential sponsors of UACs, came to me with an 
unusual situation. A potential sponsor was in our office that 
raised some eyebrows.
    First, the sponsor, who purported to be the biological 
mother of a UAC in ORR custody, was an American woman who spoke 
no Spanish. The child was from Guatemala.
    Second, the sponsor's visit to our office was her second 
trip for fingerprinting. Her two prior results came back as 
unclassified, meaning that no identification match could be 
made with her.
    Finally, the alleged mother seemed very agitated by the 
fact that the shelter caseworker requested the alleged mother 
to submit to a DNA test to prove maternity because the 
Guatemalan consulate indicated to the caseworker that the birth 
certificate listing the alleged mother as the birth mother had 
been falsified.
    Typically, once a fingerprint packet is submitted to the 
government, we do not know whether a UAC is released to a 
particular sponsor. However, in this instance, a few months 
later Catholic Charities was called to conduct a home study for 
a potential sponsor of this same UAC. This time the child's 
biological father was seeking custody. When the Catholic 
Charities social worker visited the home, she found a number of 
concerns, including the father who actually spent most of his 
time in Pennsylvania, lived with the alleged mother who had 
been denied as a sponsor by ORR previously.
    The social worker was denied access to parts of the home 
apparently because trained attack dogs were being kept in the 
concealed rooms. The Catholic Charities social worker 
recommended that the child not be placed with the father, and 
as far as we know, the child was saved from a potentially 
horrific trafficking situation by the diligence of his 
caseworker and the Catholic Charities social worker.
    My second story, which I will have to run through quickly 
since I am running out of time, highlights the problems that 
can befall UACs when ORR fails to provide adequate vetting of 
potential sponsors or to provide post-release services released 
from custody. When Anabel, a 17-year-old girl from Honduras, 
entered the United States as a UAC in 2016, she was released to 
her mother in Cincinnati. But before reunifying with her 
mother, Anabel had not seen her mother in over 10 years. Her 
mother did not receive a home study, nor did ORR conduct any 
post-release follow up with Anabel. While in Cincinnati, Anabel 
enrolled in high school and began to learn English. Her 
caseworker at Catholic Charities claims that she does very well 
in school, has a strong attendance record, and has been a model 
student.
    For reasons unclear, Anabel's mother kicked Anabel out of 
the house approximately five months after Anabel was released 
to her care. On top of dealing with immigration proceedings and 
instability in her living situation, Anabel's mother also 
called police to report Anabel as a drug addict and a runaway, 
which triggered a juvenile delinquency proceeding. Despite all 
of this, Anabel still received straight A's and goes to school.
    Congress has delegated the supportive functions to the 
Executive Branch of the care and custody of UACs. Continued 
congressional oversight coupled with continuous funding of 
these functions is essential to protecting the safety of these 
very vulnerable children. Thank you.
    Senator Portman. Thank you. Ms. Ramos.

TESTIMONY OF JESSICA A. RAMOS,\1\ STAFF ATTORNEY, ADVOCATES FOR 
BASIC LEGAL EQUALITY, INC., UNACCOMPANIED IMMIGRANT CHILDREN'S 
                            PROJECT

    Ms. Ramos. Mr. Chairman, fellow Ohio State alum Ranking 
Member Carper, and distinguished Subcommittee Members, good 
morning. Thank you for the opportunity to provide testimony on 
the matter of unaccompanied immigrant children in Ohio.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Ramos appears in the Appendix on 
page 105.
---------------------------------------------------------------------------
    My name is Jessica Ramos. I am an attorney with Advocates 
for Basic Legal Equality, a nonprofit legal services provider. 
Since 2008, I have worked on more than 400 cases of 
unaccompanied children and have represented children throughout 
Ohio from as young as a few months old all the way through 
adulthood.
    I have been asked to share my experiences working with 
these vulnerable children and my observations in Ohio in the 
past 2 years, and they are very similar to my observation in 
previous years that the Office of Refugee Resettlement expends 
little to no resources on UACs that are released from their 
custody that are reunified with sponsors in Ohio, even though 
unified ORR post-release services have a profound effect on the 
safety and well-being of these children. This is exemplified by 
my client stories in my written testimony, and many of these 
experiences have been echoed by colleagues that do the same 
work throughout this country.
    By the time I meet with my clients, ORR has abdicated all 
responsibility for them. In my years of representing UACs, I 
have only had a handful of clients that received home studies 
or any post-release services. Home studies can ensure that the 
child's sponsor has adequate resources and a safe environment 
for the child. Seeing the home and interviewing the potential 
sponsor can shed light on the sponsor's abilities to protect 
and care for the child as well as their intentions, which 
minimizes the risk that ORR will place the children with an 
improper sponsor. This is a crucial prevention tool that is 
underutilized, resulting in children being placed in dangerous 
situations.
    Post-release services are also vital and rarely offered by 
ORR in Ohio. In my experience, when these services are not 
provided, the child is exposed to increased risk.
    Many of our clients have suffered through horrible 
tragedies and hardships, and some arrive traumatized from their 
experiences. The effects of trauma on children, however, may 
not manifest itself immediately. In most parts of Ohio, there 
are very few resources available for undocumented children that 
do not speak English. In cases where the sponsor is not acting 
in the child's best interest, these ORR services, post-release 
services, may be the only link that the child has to the 
outside world. The availability of post-release services 
provided by ORR should be expanded to include children whose 
needs arise after their initial screening and placement with 
sponsors. Currently, my understanding is that that is not a 
possibility.
    Post-release services should also be provided in 
conjunction with monitoring of these children after placement. 
Case management and post-release services are important to 
ensuring their continued safety and well-being. For example, 
ORR has no mechanism, as we have heard, to track a child that 
is no longer in their original placement, which could be 
remedied by post-release services.
    In fact, one of the few people that do keep track of these 
children after their release are their lawyers, if they are 
lucky enough to have found one. Representation is extremely 
important to these children to make sure they are properly 
cared for and do not fall off the radar. Not only does being 
represented increase the likelihood of compliance with 
immigration court proceedings to the high 90th percentile, but 
attorneys can often connect children with additional resources 
that the families may not be aware of.
    In States like Ohio, where the immigration court is more 
than 4 hours away from where some of these children live, 
attorneys can arrange for telephonic hearings that would 
prevent the children from having to pay hundreds of dollars for 
transportation to their immigration court hearings.
    Universal representation of children in immigration 
proceedings is one way to protect them from falling victim to 
predators and those who do not have their best interests at 
heart. It also protects their due process rights and assists 
the immigration courts with the timely and effective processing 
of their cases as opposed to dealing with pro se children.
    Finally, the ever increasing aggressive manner in which DHS 
is pursuing children and their sponsors is putting children 
further at risk. As my colleague mentioned and as was mentioned 
in the previous panel, ICE arrests of potential sponsors is a 
disturbing trend that is dissuading suitable individuals such 
as parents from becoming sponsors. DHS' narrowing 
interpretations for eligibility of relief, their stripping of 
UAC status from children, and opposing all motions in 
immigration court during proceedings lengthens the children's 
time in legal limbo, leaving them more vulnerable to 
exploitation.
    This prioritization of enforcement over humanity is 
endangering the welfare and safety of children. My clients, 
despite having been born in another country and not speaking 
English, are still, above all things, children who deserve to 
be safe from harm, children who deserve the chance just like 
our own children, children like my 4-year-old, Oscar, who could 
only talk to the immigration judge about his Spider-Man shirts 
and his shoes that lit up, and not about his legal defense.
    ORR has a responsibility and a legal mandate, even after 
placement, to ensure these children's safety while their claims 
are being processed. I believe more coordination amongst 
agencies and legal representation for children are needed.
    I appreciate the dedication of Chairman Portman, Ranking 
Member Carper, and this Subcommittee in safeguarding the well-
being of my clients. Thank you.
    Senator Portman. Thank you. Ms. Wong.

 TESTIMONY OF KELSEY R. WONG,\1\ PROGRAM DIRECTOR AND PROJECT 
          DIRECTOR, SHENANDOAH VALLEY JUVENILE CENTER

    Ms. Wong. Chairman Portman, Ranking Member Carper, and 
Members of the Subcommittee, thank you for your invitation and 
the opportunity to discuss the services the Shenandoah Valley 
Juvenile Center provides to unaccompanied children for the 
Office of Refugee Resettlement. My name is Kelsey Wong, and I 
am the program director for the unaccompanied children program 
at the Shenandoah Valley Juvenile Center, or ``Shenandoah.'' I 
have been working with this population for almost six years and 
have witnessed the evolution of ORR over time.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Wong appears in the Appendix on 
page 112.
---------------------------------------------------------------------------
    Shenandoah is a 58-bed residential facility for youth in 
local, State, and Federal custody. We serve approximately 300 
male and female youth from the ages of 12 to 17 each year, with 
an average daily population of 46.
    Since 2009, Shenandoah has been providing secure 
residential services to ORR. At this time, we provide services 
to 34 unaccompanied children, 30 males and four females. These 
services include, but are not limited to, case management, 
education, group and individual counseling, medical, mental 
health, nutrition, recreation, religious, acculturation, and 
vocational services. We deliver secure residential care and all 
required child welfare-related services in a State-licensed 
secure detention facility. We serve approximately 92 
unaccompanied children per year with an average daily 
population of 25. Our goal with the unaccompanied children 
program is to provide high-quality secure services and 
facilitate each youth's safe and timely release from our care.
    Shenandoah is one of three programs that provides secure 
care provider services to ORR in the United States. ORR places 
unaccompanied children in a secure setting when he or she is 
unable to maintain in a less restrictive setting due to 
behavioral issues, significant disclosures of violent or 
criminal history, or possible gang involvement. Secure 
placement is the most restrictive setting within the ORR 
network. While the number of unaccompanied children requiring a 
secure setting is small, we believe that this population should 
be a high priority for the Federal Government.
    Prioritizing unaccompanied children in a secure placement 
requires the Federal Government to improve their referral 
process, internal network capacity, and decision-making on 
individual cases.
    In our written statement, we recommend the following:
    First, referring agencies, DHS and ORR, to thoroughly 
assess the youth prior to their placement into custody, 
including their status as an unaccompanied individual and 
possible gang involvement.
    Second, expand ORR's internal network capacity to better 
meet the needs of unaccompanied children with mental illness, 
significant behavioral issues, and disclosures of violent or 
criminal histories.
    Third, streamline and expedite its decision-making process 
for unaccompanied children in a secure setting in order to 
reduce their length of stay in secure placement. This may be 
achieved by streamlining decision-making processes, providing a 
dedicated field staff for each secure care provider in the ORR 
network, and funding legal service providers to work with 
unaccompanied children pending release decisions so that they 
may make progress on their legal case while they are in care.
    At Shenandoah we understand the importance of our role as a 
care provide to the unaccompanied children population, and we 
take it seriously. We look forward to continuing to work with 
this Committee and ORR in order to set these young people up 
for success, whether it is here in the United States or in 
their country of origin. We also welcome the Subcommittee 
Members to tour our facility in the beautiful Shenandoah 
Valley.
    Thank you again for the opportunity to discuss our 
services, and I hope that the information provided has been 
helpful to you. I am also happy to answer any questions that 
you may have. Thank you.
    Senator Portman. Thank you, Ms. Wong. Ms. Cathell.

     TESTIMONY OF PATTIVA M. CATHELL, ED.D.,\1\ ELL SCHOOL 
  COUNSELOR, SUSSEX CENTRAL HIGH SCHOOL, GEORGETOWN, DELAWARE

    Ms. Cathell. Chairman Portman and Subcommittee, thank you 
for inviting me and giving me the platform to shed light on how 
Sussex Central High School in Georgetown, Delaware, is 
providing access to education at all points for our UAC 
demographic.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Cathell appears in the Appendix 
on page 116.
---------------------------------------------------------------------------
    At Sussex Central High School, we have seen a surge in the 
UAC enrollment because of the resettlement in Georgetown, 
Delaware. When a family or sponsor comes to the high school to 
register a student, they typically come in with a manila packet 
with all of the paperwork that comes from ORR and all of the 
court proceedings prior to being released to the sponsor. When 
that happens, they give me the packet, and I do not really keep 
any of the paperwork because technically the school has no 
right to look at their legal paperwork. But one of the 
documents that we do keep is the release of verification form 
which has the UAC's photo and the sponsor's address and phone 
number. So that helps us as a document for the proof of 
residency.
    We do require paperwork for proof of residency when a 
parent or sponsor does enroll a student. Some of the issues 
that we see are that we see a surge in the age group of 17 for 
the UAC. Some of them are illiterate in their own language. 
Some of them do have diplomas from their country and then are 
told by the judge that they need to be enrolled in a 
comprehensive high school. They come to us in both scenarios, 
and we as a school have to interview them and use the tools 
that we have to identify what literacy gaps, what education 
they do have so that we can connect them to the appropriate 
level of education.
    We have created a mechanism to reach the illiterate and the 
student with limited education or maybe a gap in education from 
their home country to the United States, and we created a 
program called the Accelerated Pre-Literate English Language 
Learner Program (APELL). Students that have less than a 2-year 
gap or have been educated in their country are then provided 
education through the immersion program, through our ELL 
Department.
    It is important to note that we started the year with 
around 27 students. We saw a surge in January with another 27 
students. Of the 27 students, there were only three females; 
the rest were male. We have been observing trends for the last 
five years. Typically in January--it is right before planting 
season. We are in a rural area where we have agriculture in the 
fields. We have poultry plants. We have poultry farms. Labor is 
needed. We see that a lot of our students are coming to school 
during the day and then obtain fake documents with other 
people's names and are working at night or working in the 
field.
    I recently enrolled 10 more students, so we are now at the 
count of 101 new UACs for this current school year. To speak to 
the first panel, we do see on that release form the category of 
sponsorship, and it is very rare that the child is released to 
Category 1, which is the parent. We see more often than not the 
Category 2, where it is a relative, but it does concern us, the 
amount of students who are released to the Category 3, distant 
relative.
    It is not uncommon for a student to register, come to 
school for a couple of months, and then withdraw for employment 
reasons or move. It is a common trend that students who enroll 
now, which is our fourth marking period, cannot earn any 
credit. Once they have experienced a few months of school, they 
have the summer, and they do not return. This year we had 40 
students, 40 UACs, not return. It is a big concern for us, and 
we are hoping to get more insight and help from the Department 
of Education and from you.
    Thank you.
    Senator Portman. Thank you, Ms. Cathell. Ms. Graham.

  TESTIMONY OF LAURA GRAHAM,\1\ DEPUTY DIRECTOR AND MANAGING 
 ATTORNEY, DELAWARE IMMIGRATION AND MEDICAL-LEGAL PARTNERSHIP 
           PROGRAM, COMMUNITY LEGAL AID SOCIETY, INC.

    Ms. Graham. Thank you, Mr. Chairman, Ranking Member Carper, 
and other Members. It is with great pleasure that I am here 
today to speak with the Subcommittee regarding my agency, 
Community Legal Aid Society, in Delaware, and our work with 
unaccompanied alien children.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Graham appears in the Appendix on 
page 133.
---------------------------------------------------------------------------
    To give you some background about CLASI, we are nonprofit 
law firm in the State of Delaware, and we provide civil legal 
services to individuals who are low-income, people with 
disabilities, people who are elderly, and individuals who are 
victims of crime. Part of our crime-based work is to provide 
immigrants with relief related to their victimization.
    For example, we provide relief related to U visas for 
victims of crime, T visas to victims of human trafficking, VAWA 
relief for spouses and children of U.S. citizens or permanent 
residents who have been victims of domestic abuse, and special 
immigrant juvenile status to children who have been found by a 
State court to have been abused, abandoned, or neglected by one 
or both of their parents and in whose best interest it is to 
remain in the United States in the care and custody of a court-
appointed guardian.
    I would like to speak a little bit about the children who 
have been placed in Delaware and then the concern that my 
agency has in the legal rights and the due process afforded to 
these children.
    Between October 2016 and February 2018, which is the most 
recent 18 months for which data is available, ORR placed 272 
children with sponsors in the State of Delaware. The concern 
that Community Legal Aid has or is seeing is that sponsors and 
the UACs are not educated or informed about their rights and 
responsibilities with regard to representation and immigration 
proceedings. I want to talk about two specific issues. First 
would be with relation to guardianship and second with relation 
to immigration proceedings.
    First, with relation to guardianship, many UACs and their 
sponsors have very little information about what guardianship 
is, and many sponsors are unaware that they are not, in fact, 
the legal guardian of this child. Their understanding is the 
child has been placed with them, but they are unaware that they 
need to actually seek a court order from the State of Delaware 
family court granting them or ordering them to be the guardian 
of this child. What this means is the sponsor technically under 
State law does not have the right to make decisions with 
regards to medical care, legal care, educational decisions, 
and, more importantly, immigration issues. That is because the 
guardianship order not only gives the sponsor the legal status 
to make these decisions, but it also is a vehicle by which the 
child can qualify for special immigrant juvenile status.
    The second issue that we are seeing is the lack of 
knowledge about the immigration relief available to these 
children, and, again, both the children themselves and their 
sponsors receive very little language-appropriate oral 
information about what their responsibilities are and the 
impact of those responsibilities. As the panel is aware, 
immigration relief and immigration law is very complicated. It 
is very difficult for the pro bono attorneys that we train to 
take these cases to navigate the special immigrant juvenile 
process, let alone for an unaccompanied child who may not have 
literacy or education in English.
    An issue that we are seeing is that the sponsors and the 
UACs are not given information about the venue or how to change 
the venue of their immigration proceedings. In a recent case 
that we had, the child was held at an ORR facility in Chicago 
and then was released to a sponsor in the State of Delaware. No 
one informed the sponsor or the child that he was placed into 
proceedings in Chicago in the immigration court. The sponsor 
and the child had no idea how to change the venue and had to 
navigate that system themselves to get the venue changed from 
Chicago to the Philadelphia immigration court, which has 
jurisdiction over children residing in our State.
    The impact of representation or having an advocate on these 
cases is crucial, as a prior panelist mentioned. Recent 
University of Syracuse statistics have shown that over half of 
unaccompanied children are pro se, and only 15 percent of pro 
se children are successful on their claims. Conversely, over 75 
percent of represented children are successful on their claims. 
Moreover, 94 percent of children who have attorneys actually 
appear for their immigration court hearing. Not only is 
representation crucial to the outcome, it is crucial for 
children to even appear in court.
    My agency would like to see additional safeguards put into 
place so that these children are warmly referred to a State or 
local agency that can represent them and navigate them through 
these proceedings.
    Thank you again for the opportunity.
    Senator Portman. Thank you, Ms. Graham. Thank you, all five 
of you, for your testimony.
    We are going to run and vote. We are going to come back. If 
you are willing to be patient, we will be back to ask questions 
as fast as we can run to the floor, vote twice, then come back.
    Senator Carper. Does anybody have to leave? Are you able to 
stay? OK. Hopefully we will be back within 20 minutes. Thank 
you. Thanks for your patience. Thank you for your testimony.
    [Recess.]
    Senator Portman. The hearing will reconvene. We are very 
happy to see that you did not abandon us. Thank you for 
sticking around.
    We have only two of us here to ask questions, but others 
may well submit questions for the record. In other words, we 
will ask you to respond in writing after the fact. In fact, I 
am going to be doing that with some of the questions we will 
not get to today because I do not want to hold you too long, 
and I know both of us have other commitments.
    I am going to start, if I could, with our two Ohioans, not 
just because they are Buckeyes but because they made a lot of 
interesting comments in their testimony. The first one has to 
do with this issue we talked about earlier whether HHS is 
actually taking its responsibility seriously to make sure these 
kids are placed with the right sponsors. You talked a little, 
Ms. Ramos, about the fact that the sponsors themselves do not 
know what their responsibilities are, and I thought it was 
fascinating, you talked about the guardianship issue. That 
seems to me to be a communication challenge that can be pretty 
easily solved, in other words, to provide sponsors with the 
information they need to be able to either get that 
guardianship or to change the legal situation so that they can 
have it to be able to provide proper care for these kids, 
including medical care, which was an interesting part.
    Can you expand on that a little bit and suggest what an 
answer might be to that, what a solution might be to that?
    Ms. Ramos. Thank you, Chairman Portman. I believe Ms. 
Graham was the one that spoke about the guardianship issue, but 
it is true that we do find that many sponsors lack----
    Senator Portman. But she is from Delaware. [Laughter.]
    Ms. Ramos. Right.
    Senator Portman. I have to let Senator Carper ask her the 
question.
    Ms. Ramos. Sure. We encounter the exact same issue in Ohio, 
however, and I think that one great remedy is the additional 
post-release services being provided to all children and 
definitely legal representation. We are able to help guide them 
through the process. I know that in my preparation for this 
testimony today I spoke with colleagues from across the country 
to try to get some idea of what is going on in their States, if 
they are having similar issues. One of the complaints was that 
they are not notified about these legal issues about obtaining 
guardianship, and sometimes that does not happen in a timely 
manner, which restricts the child's ability to pursue that form 
of relief.
    Basically, children may miss out on an opportunity to 
legalize their status through our existing laws because they 
are not notified of the proper process, and if they had been 
assigned an attorney from the get-go, then that would 
definitely relieve that problem.
    Senator Portman. As to their legal status, in addition to 
not being able to access some services that they could get 
through health care, through guardianship and so on.
    Another issue that was raised--and it frustrates me that we 
only have one judge in Ohio, and that judge happens to be in 
Cleveland, Ohio, so you mentioned four hours. It is not four 
hours if you live in Cleveland, but it is if you live in 
southeast Ohio or Cincinnati. My question to you is: What could 
we do there--for a while there was the opportunity, as I 
understood it, for there to be either judges coming down to 
southern Ohio and convening proceedings there, which they no 
longer do. Or as you suggest, maybe some sort of a telehearing 
where you had the ability to do this through some sort of 
communications. What is your thought there? What can we do to 
improve access?
    One of the issues that obviously concerns this Subcommittee 
is the fact that so many people are not showing up for their 
hearings, and making it more possible to show up because of 
transportation challenges seems to me to be a good idea. What 
are you solutions there?
    Ms. Ramos. Chairman Portman, yes, it is true that there 
used to be a video teleconference capacity with judges that 
were actually based in D.C. through Cincinnati. When the 
immigration court was staffed up in 2008 in Cleveland, they 
stopped those videoconferencing hearings. Videoconferencing is 
definitely one way, if those services were available in 
additional sites beyond Cleveland, that would increase access 
and would minimize the travel necessary by these clients to 
reach their court hearings.
    We also feel that, again, representation with attorneys--
our judge in Ohio that you mentioned that handles the juvenile 
docket, she is very generous with allowing telephonic 
representation and appearances when the child is represented. 
Through an attorney, we are often able to make sure that those 
hearings are conducted by telephone, and we ensure that the 
children appear for those.
    Senator Portman. Ms. Herre, we talked earlier a lot about 
what HHS is providing after they release a child to a sponsor, 
and the home visits, as we learned, are done in a relatively 
small percentage of cases, maybe 20 to 30 percent--30 percent 
last year, 20 percent the year before. We also talked about the 
insufficient vetting, and if we can ever get this agreement 
between HHS and DHS, I think a lot of this can be improved.
    But if you could talk for a second about that, are you 
aware of what kind of post-release services are being provided 
to UACs in the Cincinnati area? What do you think should be 
provided that is not being provided?
    Ms. Herre. Yes, thank you, Chairman Portman. The agency I 
work for, Catholic Charities of Southwestern Ohio, has grants 
through ORR. We are subgrantees on two grants, one which 
provides fingerprinting services and family reunification 
packet assistance to sponsors of UACs before a child is 
released. We also have through the Su Casa Hispanic Center a 
grant to do home studies and post-release services. The home 
study usually consists of a caseworker going to the family 
home, investigating the living conditions, talking to the 
family members in the home, and making a general assessment 
based upon their best judgment of whether or not it is going to 
be a suitable placement for the child.
    Now, the post-release services, which are offered to more 
children, admittedly, than to individuals who receive the home 
studies, these services are more intensive case management. 
They include assistance in finding legal representation. They 
include assistance in enrolling in school, educating the 
sponsors on their legal rights and responsibilities as far as 
they are able to as a social worker. They also will make sure 
that the child is in a safe and nurturing environment.
    Now, unfortunately, ORR has changed its policies in terms 
of how long children are given this post-release service, so I 
believe the prior policy was 90 days, and it has been cut down 
to 30 days now. Our caseworkers have had instances when they 
have had to actually request for more time, and more often than 
not, they are welcomed to do that, and with our partners at the 
U.S. Conference of Catholic Bishops, we have partnered with ORR 
to make sure that those post-release services are able to 
continue where needed.
    Senator Portman. Ms. Wong, I do not want to leave you out. 
You talked a little about what is going on at your facility, 
the Shenandoah Valley Juvenile Center. As you know well, HHS is 
not providing all of the information needed, as we talked about 
earlier, and not keeping track of these students. But with 
regard to Shenandoah Valley, do you feel like HHS is providing 
you with adequate information about these young people who end 
up in your facility? Do you feel like HHS is doing what it 
should be doing in terms of screening those UACs to be sure 
that the right ones are ending up in your facility?
    Ms. Wong. Thank you for your question, Chairman Portman. 
Yes, I think there are several areas where I think ORR can 
improve with respect to screening and placing youth in a secure 
placement, specifically with respect to their unaccompanied 
status. Recently we have received a lot of youth who were 
previously placed in ORR custody and then placed with us again, 
but they were living with their sponsor or biological parent. 
There is a question to their unaccompanied status. The second 
thing is that the youth were being screened as gang-involved 
individuals, and then when they came into our care and they 
were assessed by our clinical and case management staff, they 
did not necessarily meet those--they were not necessarily 
identified as gang-involved individuals. It really ends up 
affecting their long-term case plan and getting them released 
back into the community so that they can be with their family.
    On another note, I think another issue that we have with 
ORR is with respect to the youth that we have who present with 
high mental health needs, and those youth we assess and, when 
approved by ORR, we do psychological evaluations for these 
kids. If the psychologist recommends a residential treatment 
center placement, then we elevate to ORR to refer to those 
residential treatment centers in network. Now, there are only a 
few of them in network, and most of them are unwilling to work 
with youth who have behavioral issues, and a lot of kids who 
are in our type of setting have significant behavioral issues. 
I think there is a real concern with internal network capacity 
and being able to have a secure residential treatment center to 
provide services to these kids who are in secure placement, and 
that is something we have elevated several times.
    Senator Portman. Well, thank you. We are going to follow up 
with, again, some written questions for the panelists. I 
appreciate your testimony today, and I now turn to Senator 
Carper.
    Senator Carper. Thanks. Again, thanks. We are deeply 
grateful that you are here and grateful for the work you do 
with your lives.
    I want to go back to one of the questions I asked our first 
panel, and I oftentimes ask this question when we are doing 
oversight. I say to the panelists, the witnesses, what could we 
be doing better or more of at the Legislative Branch, the 
oversight committee? The earlier witnesses basically said 
nothing. They thanked us for what we are doing. We actually 
dramatically increased funding for judges, the courts, and 
stuff like that. Each of you give us one thing that we need to 
do more of. It might be oversight. I do not know.
    Ms. Graham. Thank you for the question, Senator. I think 
funding to ensure that these youth receive legal representation 
is something that would not only help the youth have a better 
outcome and access justice, but it would also actually help our 
overburdened immigration courts. Children who are represented 
have better results.
    Senator Carper. OK. Thank you. Ms. Cathell.
    Ms. Cathell. You had mentioned with the first panel that 
there should be a hand-off from ORR to somebody, the law 
enforcement agency or someone in the town or the county that 
the child is being released to. From the education standpoint, 
if that were to happen, I think that there should be someone at 
the Department of Education and there should be someone at 
every school district who is responsible for being able to 
process a student, a UAC, to determine their language 
acquisition, to determine their educational background, to 
ensure that they are possibly interviewing the parent or the 
sponsor when they do come. If you are going to choose a 
government agency to hand off to, if you are going to choose 
the education piece, then the Department of Education has to 
work closely with the district.
    Senator Carper. All right. Thank you. Ms. Wong.
    Ms. Wong. From the care provider's standpoint, I think what 
you are doing is what is necessary and just continuing to 
support HHS, ORR, and to improve its processes, and hopefully 
there will be changes to policies and procedures not only 
within the network overall, but specifically for secure care 
providers as well. Thank you.
    Senator Carper. All right. Thank you. Ms. Ramos.
    Ms. Ramos. All the good answers have been taken. No, just 
kidding.
    Senator Carper. You can repeat good answers. That is OK. 
[Laughter.]
    Ms. Ramos. Sure. I definitely agree that legal 
representation is a good step, but I also believe that 
expansion of post-release services to include children that may 
have needs arise after release. To my knowledge, services are 
only available to 25 individuals at one time. That is what 
their funding provides, when we have routinely between 500 to 
800 children released in Ohio every year, so that covers a very 
small portion.
    Senator Carper. All right. Thanks.
    Allison, would you pronounce your last name for me again?
    Ms. Herre. ``Her-eee.'' It is like ``Marie,'' like the 
woman's name.
    Senator Carper. It is not Spanish. What is it?
    Ms. Herre. It is French.
    Senator Carper. Thank you.
    Ms. Herre. Yes, I am not French----
    Senator Carper. We just had a French President before a 
joint session yesterday.
    Ms. Herre. Yes, Macron was just here.
    Senator Carper. He was quite good.
    We thought about calling him as a witness.
    Ms. Herre. Well, he should be here today.
    I do echo the points brought up by the other attorneys at 
the table today. I do want to caution in terms of informing 
local child welfare agencies and law enforcement agencies and 
even educational providers of UACs released in the 
jurisdictions of those individual agencies, that while thorough 
checks of sponsors is important and having someone checking in 
on those children after the fact of release is also important, 
that release of information should be coupled with some sort of 
confidentiality notice to protect the privacy and the identity 
of the children, because we do not know what the providers, 
although they might be very well intentioned, would do with 
that information once it is released to their agencies.
    Senator Carper. I often say in this room, find out what 
works, do more of that. One of the things we are trying to 
figure out what works in Delaware, I actually reached out to 
the Chief Justice of the Supreme Court in Delaware a couple of 
years ago, who used to be my intern--can you believe that? He 
is now the Chief Justice of the Delaware Supreme Court. I 
reached out to him and I said we have all these young people 
coming across the border into Mexico, a lot of Guatemalans 
migrate to southern Delaware. For years they worked in the 
chicken plants, in the agricultural sector of our economy. I 
said on the issue of legal counsel, they do not have legal 
counsel. God bless the Chief Justice and the folks who work 
with him, they rounded up 75 lawyers to provide pro bono 
assistance, and almost none of them spoke Spanish. We had all 
these Spanish-speaking kids, and we had lawyers who were ready 
to do pro bono work, but they could not talk.
    Now we are trying to work with Catholic Charities and 
trying to work with a couple of other entities, Widener School 
of Law, which is in our State, the northern part of our State, 
close to Philadelphia, which is where these immigration court 
hearings take place for our residents, and to see if there are 
not Spanish-speaking law students at Widener who might like to 
do some pro bono work and help out.
    We are trying to think outside the box. Do you all know of 
any States that are doing an especially good job in terms of 
the hand-off from ORR to State and local folks, anybody that is 
doing an especially good job that we could look to as a model?
    Ms. Herre. I have heard that, at least in the legal 
representation context, in New York the city provides pro bono 
representation to immigrants in removal proceedings, not just 
immigrants who cannot afford--well, most immigrants that cannot 
afford attorneys, but UACs in particular.
    Senator Carper. Anybody else aware of a good practice that 
we ought to be mindful of?
    Ms. Wong. Some of the care providers--I cannot speak to the 
shelter care providers, but within our setting we do a pretty 
comprehensive safety and supervision plan that we prepare with 
the sponsor and the youth prior to their release. Most kids are 
not released from our setting, but they step down and then 
released at lower-level settings. We prepare that comprehensive 
safety and supervision plan to make sure that there is the 
pass-off of information, and that information is also shared 
with the post-release worker so that they can follow up with 
them on whether it needs to be amended or something like that.
    Senator Carper. All right. Ms. Cathell.
    Would you just take a minute to describe how you learn that 
an unaccompanied child is now part of the community say in 
Georgetown, Delaware, in southern Delaware? Is there a case 
manager that helps these kids if they register for school and 
make sure they are aware of the resources that are available to 
them?
    Ms. Cathell. Thanks for the question. There is not a case 
manager that connects the student and sponsor to the school. We 
have been operating and enrolling UACs for about five years 
now, and it is just word of mouth. Georgetown is the fifth 
largest resettlement for the Guatemalan culture and heritage in 
the United States. Sussex County is rich in agriculture as well 
as the beach and restaurant and leisure employment for our 
area. I am the only person that comes into contact with them at 
the point of registration with my administrative assistant, and 
we work through the paperwork that they give us.
    The problem we have that is pretty pervasive is once the 
child is released to a sponsor, it is like the first panel, the 
question was: Are you vetting them to see that they are a good 
fit? Are they documented? A lot of our sponsors are also 
undocumented, so they have not navigated the immigration system 
successfully either, so they do not see the importance of 
getting them to their appointment.
    They are also filling out the registration paperwork, and 
they have a limited word bank in their own native language, so 
even though we provide the documents in their native language, 
they cannot read. A lot of our sponsors are also illiterate. It 
puts the UAC at a major disadvantage. Some of our UACs who come 
that are educated in their own country do a much better job. 
They learn the language acquisition quickly, and we have seen a 
success rate of graduates over the last three years.
    Senator Carper. You said, ``We have seen a success rate.'' 
Is the success rate increasing?
    Ms. Cathell. Success rate in graduation rate. We went 
from--my first year we graduated 12 UACs.
    Senator Carper. Out of what?
    Ms. Cathell. Out of a class of 300, approximately. Last 
year, we had a class of 331, and we graduated 34 UACs. This 
year, we are at 364 in the cohort, and we are looking to 
graduate 53 UACs. That is through a customized approach looking 
at what the kid comes to the country with as far as their 
previous education, providing them English acquisition classes 
every single day, providing them summer school in the summer, 
and giving them a pathway. We offer career and technical 
education (CTE), in our schools to teach them a job skill. A 
lot of them are working in labor industries, but we----
    Senator Carper. I am going to have to ask you to wrap it up 
here.
    Ms. Cathell. I am sorry. We just preach that if you come to 
school and you become literate, you are going to be able to 
navigate your resources better. But it is a problem at the 
point of entry when they do not speak English and they are 
released to a sponsor that does not speak English, or read in 
their native language as well.
    Senator Carper. OK. Thanks.
    Could I just ask a quick yes or no? The question is: Would 
it be beneficial for HHS to notify State governments of 
placement of unaccompanied children with sponsors within their 
States? Would it be beneficial for HHS to provide the 
notification to State Government? Just yes or no. Allison?
    Ms. Herre. Maybe.
    Senator Carper. Sorry?
    Ms. Herre. Maybe.
    Senator Portman. Privacy. Privacy is your concern?
    Ms. Herre. Right, privacy issue.
    Senator Carper. OK. Jess?
    Ms. Ramos. I would agree with Ms. Herre, yes, if there are 
some privacy implementations.
    Senator Carper. OK. Kelsey?
    Ms. Wong. I would agree.
    Senator Carper. Dr. Cathell?
    Ms. Cathell. I also agree.
    Senator Carper. OK.
    Ms. Graham. Yes, assuming privacy concerns are addressed, 
yes. Thank you all very much.
    Senator Portman. Thank you all for your testimony.
    Senator Carper. Thanks to our staff. I know our staffs work 
really hard on getting us ready for today, but just for 
everybody on either side, thank you very much.
    Senator Portman. Thanks to Senator Carper and his team for 
working closely with us on this.
    In terms of the staff, Amanda Neely behind me here has 
spent hours on this, but also Andy Dockham and Stephanie Hall; 
and our interns Jason Cowan and Tate Latinovich, who is here; 
and our PSI clerk, of course, Kate Kielceski, thank you for 
your hard work. And the minority staff, John Kilvington and 
Roberto Berrios, thank you, guys, very much.
    What have we learned today? We learned a lot. We learned we 
have a broken immigration system. Of course, we have to repair 
that more broadly. But in the meantime, we have these young 
people here in our country, and we are not doing justice to 
them or to the immigration system or to the taxpayer in the way 
it is being handled. We learned about so many gaps, so many 
times where in the process the government agencies are not 
communicating and not doing what they should do. We need to be 
sure these children are not being trafficked, are not being 
abused, as happened in my home State. We also, though, need to 
be sure that they are showing up for their immigration 
proceedings. We learned today that, unfortunately, roughly half 
or more of those UACs are not showing up, and a lot of it is 
lack of follow up.
    We learned today, which I thought was kind of shocking 
information, that so many of these young people are not being 
tracked at all. In other words, when you look at the testimony 
we got today, despite what was said in the oral testimony, when 
they make these calls 30 days afterwards, which in just a 3-
month period we found out that 1,500 of these young people were 
unaccounted for, 1,500 out of roughly 7,000. So as I said, that 
is not 100 percent. That is closer to 19 percent or more who 
are literally going missing.
    There are lots of opportunities here to improve a broken 
system, and we hope that we will be able to get some 
information back soon from the agencies you saw today as to how 
they are going to address some of these issues and provide some 
accountability so that somebody is in charge and that there is 
somebody to be held responsible to ensure the proper care and 
the proper working of the system.
    The hearing record will remain open for 15 days for any 
additional comments or questions from any of the Subcommittee 
Members, and, again, if you all do not mind answering some 
additional questions for the record, we would appreciate that.
    With that, this hearing is adjourned.
    [Whereupon, at 1:06 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
